APPENDIX

APPENDIX
TABLE OF CONTENTS
Memorandum in the United States Court of Appeals for the Ninth Circuit
(April 21, 2020) ................................................................................................ App. 1
Initial Decision of the Merit Systems Protection Board (July 31, 2018) ............ App. 5
Order Denying Rehearing in the United States Court of Appeals for the
Ninth Circuit (August 20, 2020) ................................................................... App. 33
Initial Decision in the United States of America Merit Systems Protection
Board Western Regional Office (March 21, 2016) ........................................ App. 34
Final Order in the United States of America Merit Systems Protection Board
(January 6, 2017)........................................................................................... App. 63
Memorandum in the United States Court of Appeals for the Ninth Circuit,
No. 17-70617 (January 8, 2019) .................................................................... App. 76

i

Case: 18-73009, 04/21/2020, ID: 11666572, DktEntry: 41-1, Page 1 of 4

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
APR 21 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
KATHRYN A. FLYNN,

U.S. COURT OF APPEALS

No. 18-73009

Petitioner,

MSPB No. SF-1221-18-0406-W-1

v.
UNITED STATES DEPARTMENT OF
THE ARMY,

MEMORANDUM*

Respondent.
On Petition for Review of an Order of the
Merit Systems Protection Board
Submitted April 7, 2020**
Before:

TASHIMA, BYBEE, and WATFORD, Circuit Judges.

Dr. Kathryn A. Flynn petitions pro se for review of the Merit Systems
Protection Board’s (“MSPB”) final order in her administrative action against the
Department of the Army (“the agency”) alleging violations of the Whistleblower
Protection Enhancement Act of 2012, 5 U.S.C. § 2302(b)(8), arising out of the

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
*

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
**

App. 1

Case: 18-73009, 04/21/2020, ID: 11666572, DktEntry: 41-1, Page 2 of 4

agency’s disciplinary decisions and ultimate failure to renew her employment. We
have jurisdiction under 5 U.S.C. § 7703(b)(1)(B). We review de novo questions of
the MSPB’s jurisdiction, Daniels v. Merit Sys. Prot. Bd., 832 F.3d 1049, 1054 (9th
Cir. 2016), and we affirm.
The MSPB properly dismissed for lack of jurisdiction Flynn’s claims related
to her filing an Equal Employment Opportunity Commission (“EEOC”) complaint
and reporting sexual harassment because such complaints fall within the province
of the EEOC. See Daniels, 832 F.3d at 1051 (explaining that the MSPB
jurisdiction is limited to whistleblower disclosures) (citing 5 U.S.C. § 1221(a)); see
also Spruill v. Merit Sys. Prot. Bd., 978 F.2d 679, 692 n.17 (Fed. Cir. 1992) (noting
that “the EEOC framework specifically provides for employees who suffer reprisal
for the filing of [an] EEOC complaint”).
The MSPB properly dismissed for lack of jurisdiction Flynn’s claims related
to the agency’s alleged lack of transparency because Flynn failed to allege nonfrivolous allegations of protected whistleblower activity under Section 2302(b)(8)
of the Whistleblower Protection Act (“WPA”). See 5 C.F.R.
§ 1201.4(s) (for purposes of MSPB jurisdiction, a non-frivolous allegation is “more
than conclusory,” “plausible on its face,” and “material to the legal issues in the
appeal”); see also 5 U.S.C. § 2302(b)(8)(A) (under the WPA, an employee must

2

App. 2

18-73009

Case: 18-73009, 04/21/2020, ID: 11666572, DktEntry: 41-1, Page 3 of 4

“reasonably believe[]” that the disclosure relates to an activity prohibited under the
statute); Coons v. Sec’y of U.S. Dep’t of Treasury, 383 F.3d 879, 890 (9th Cir.
2004) (to determine whether a disclosure relates to a prohibited activity under the
WPA, courts examine whether a “‘disinterested observer with knowledge of the
essential facts . . . reasonably [would] conclude that a disclosure” evidences
activity prohibited under the statute (quoting Lachance v. White, 174 F.3d 1378,
1381 (Fed. Cir. 1999))).
The MSPB properly dismissed Dr. Flynn’s remaining claims related to the
agency’s mismanagement and abuse of government contracts as barred under the
doctrine of res judicata because Flynn could have raised these claims in her prior
MSPB complaint, MSPB No. SF-1221-14-0620-W-1, which was adjudicated in a
final decision on the merits. See Bldg. Materials & Constr. Teamsters Local No.
216 v. Granite Rock Co., 851 F.2d 1190, 1195 (9th Cir. 1988) (res judicata bars
relitigation of an administrative determination by a federal agency “when the
agency’s determinations have been made in a proceeding complying with
standards of due process and when the findings are supported by substantial
evidence in the administrative record” (citation and internal quotation marks
omitted)); see also Carson v. Dep’t of Energy, 398 F.3d 1369, 1375-76 (Fed. Cir.
2005) (concluding that employee’s MSPB petition was barred by a prior MSPB
petition under the doctrine of res judicata).

3

App. 3

18-73009

Case: 18-73009, 04/21/2020, ID: 11666572, DktEntry: 41-1, Page 4 of 4

The MSPB did not abuse its discretion by denying Flynn’s motion to compel
discovery. See Duggan v. Dep’t of Defense, 883 F.3d 842, 847-48 (9th Cir. 2018)
(setting forth standard of review for denial of discovery requests in administrative
proceedings); see also Langer v. Dep’t of Treasury, 265 F.3d 1259, 1265 (Fed. Cir.
2001) (explaining that “the admissibility of evidence is within the sound discretion
of the [MSPB]”).
We reject as unsupported by the record Flynn’s contention that the MSPB
did not properly conduct a de novo review of her petition and erroneously relied on
the Office of Special Counsel’s determination in her prior petition.
AFFIRMED.

4

App. 4

18-73009

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 4 of 32

UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
WESTERN REGIONAL OFFICE
DOCKET NUMBER
SF-1221-18-0406-W-l

KATHRYN A. FLYNN,
Appellant,

v.
DATE: July 31, 2018

DEPARTMENT OF THE ARMY,
Agency.

Kathryn A. Flynn, Claremont, California, pro se.
Michael L. Halperin, Esquire, Monterey, California, for the agency.
BEFORE
Franklin M. Kang
Administrative Judge
INITIAL DECISION
INTRODUCTION
Prior to filing this individual right of action (IRA) appeal on March 27,
2018, the appellant filed an IRA on June 6, 2014 through her attorneys, alleging
that the agency unlawfully declined to extend her not-to-exceed (NTE)
appointment as an Associate Professor .at the agency's Defense Language
Institute and Foreign Language Center (DLIFLC) in Monterey, California. Initial
Appeal File (IAF), Tab 1; Flynn v. Department of the Army, MSPB Docket No.
SF-1221-14-0620-W-l, slip op. (Initial Decision, March 21, 2016) (Flynn-1).
The appellant's NTE appointment thereafter ended effective October 28, 2013

App. 5

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 5 of 32

2

when it was not extended. Flynn-I Initial Appeal File (Flynn-I IAF), Tab 7 at
1713, 1716; 1 Flynn, slip op.
On November 21, 2013, the appellant filed a complaint with the Office of
Special Counsel (OSC), alleging that the agency declined to extend her NTE
appointment based on her whistleblowing activities, then filed an IRA on June 6,
2014 following the lapse of more than 120 days. Flynn-I IAF, Tab l; see
5 U.S.C. § 1214(a)(3)(B). Following a hearing, the administrative judge issued
an initial decision on the merits of her claim that was thereafter affirmed by the
Board. Flynn, slip op.; Flynn v. Department of the Army, MSPB Docket No. SF1221-14-0620-W-l, (Non-Precedential Final Order, January 6, 2017) (NPFO);
5

u.s.c. § 1221.

According to the appellant, on December 1, 2017, approximately 11
months after the Board issued the NPFO denying her petition for review, she filed
the OSC complaint underlying the instant appeal, raising a variety of allegations
about her prior employment as an NTE. IAF, Tab 1. There is nothing in the
record to suggest that the appellant returned to work at the agency in any capacity
following the lapse of her NTE term appointment at issue in Flynn-I. Id. On
January 30, 2018, OSC issued its decision closing the appellant's underlying OSC
complaint. Id. hi its January 30, 2018 closing letter, OSC declined to review the
appellant's underlying complaint because the decision in Flynn-I addressed her
NTE employment history to include the issues she recently raised with OSC. Id.
Referencing this same period of NTE service and attaching OSC's January 30,
2018 letter noted above, the appellant filed this IRA with the Board on March 27,
2018. Id. For the reasons discussed below, this appeal is DISMISSED for lack of
Board jurisdiction.

1

Pinpoint citations to the IAF refer to the page numbers affixed upon entry and/or
submission of a referenced item into the Board's electronic repository.

App. 6

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 6 of 32
3

ANALYSIS AND FINDINGS
Jurisdiction
The Board does not have jurisdiction over all agency actions that are
alleged to be incorrect. See, e.g., Preece v. Department of the Army, 50 M.S.P.R.
222, 226 (1991); Hipona v. Department of the Army, 39 M.S.P.R. 522, 525
(1989). Further, merit system principles are intended to furnish guidelines to
Federal agencies; they do not constitute an independent basis for appeal. Neal v.
Department of Health & Human Services, 46 M.S.P.R. 26, 28 (1990).

The

appellant bears the burden of proving that the Board has jurisdiction over this
appeal. 5 C.F.R. § 1201.56.
The Board has jurisdiction over an IRA appeal if the appellant has
exhausted her administrative remedies before OSC and makes nonfrivolous
allegations that she engaged in whistleblowing activity by making a protected
disclosure; and the disclosure was a contributing factor in the agency's decision
to take or fail to take a personnel action. Yunus v. Department of Veterans
Affairs, 242 F.3d 1367, 1371 (Fed. Cir. 2001).

The Whistleblower Protection Act prohibits government personnel actions
taken against an employee in reprisal for whistleblowing. 5 U.S.C, § 2302(b)(8);
Mintzmyer v. Department of the Interior, 84 F.3d 419, 422 (Fed. Cir. 1996).

Except where an independent right to appeal an adverse personnel action directly
to the Board exists, an employee or .former employee aggrieved by a personnel
action must first seek corrective action from OSC. Id. Only after OSC has
notified the employee or former employee that it has terminated its investigation,
or has failed to commit to pursuing corrective action within 120 days, may that
person file an IRA appeal under 5 U .S.C. § 1221 with the Board.

5 U.S.C.

§ 1214(a)(3); Mintzmyer, 84 F.3d at 422.
To satisfy this IRA exhaustion requirement, an appellant must inform OSC
of the precise ground of his or her charge of whistleblowing, so OSC has a
sufficient basis to pursue an investigation which might lead to corrective action.

App. 7

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 7 of 32
4

Further, once the OSC process has terminated and the appellant has filed his or
her Board IRA appeal, the Board will consider only those matters that the
appellant asserted before OSC, and it will not consider any subsequent
recharacterization of those charges put forth by the appellant in his or her appeal
to the Board. See Ward v. Merit Systems Protection Board, 981 F.2d 521, 526

(Fed. Cir. 1992); D'Elia v. Department of the Treasury, 60 M.S.P.R. 226, 231-32
(1993), modified in part by Thomas v. Department of the Treasury, 77 M.S.P.R.
224 (1998).

The test of the sufficiency of an employee's charges of

whistleblowing to OSC is the statement that he or she makes in the complaint
requesting corrective action, not his or her post hoc characterization of those
statements. Ellison v. Merit Systems Protection Board, 7 F.3d 1031, 1036 (Fed.
Cir. 1993).
A disclosure is protected under 5 U.S.C. § 2302(b)(8) if the appellant
shows that he or she reasonably believed that the disclosed information evidenced
a violation of law, rule, or regulation, gross mismanagement, gross waste of
funds, abuse of authority, or substantial and specific danger to public health or
safety. To establish that he or she had a reasona�le belief that a disclosure met
the criteria of 5 U.S.C. § 2302(b)(8), the appellant need not prove that the
condition disclosed actually established any of the situations detailed under
5 U.S.C. § 2302(b)(8)(A); rather, he or she must show that the matter disclosed

was one which a reasonable person in his or her position would believe evidenced
one of the situations specified in section 2302(b)(8)(A). See, e.g., Juffer v. U.S.
Information Agency, 80 M.S.P.R. 81, ,i 10 (1998). Under the Whistleblower

Protection Enhancement Act of 2012, a disclosure is not excluded from protection
because it was made to a supervisor, a person who participated in the activity that
is being disclosed, or because the information was previously disclosed.
Similarly, it is not excluded because it is made during the normal course of duties
if an authorized employee took or threatened a personnel action in reprisal for the
disclosure.

App. 8

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 8 of 32

5

In determining whether an appellant's disclosures are "protected" under the
statute, as stated above, the Board will review his or her characterization of his or
her disclosures to OSC, not a post hoc characterization of those statements.

Ellison, 1 F.3d at 1036. Moreover, while the Board has rejected the requirement
that an appelJant correctly label which category in 5 U.S.C. § 2302(b)(8) he or

she is alleging his or her disclosure implicated, an appellant must still give OSC
information that is sufficient to pursue an investigation that might lead to

corrective action. Thomas v. Department of the Treasury, 77 M.S.P .R. 224, 236-

37 (1998), overruled on other grounds, Ganski v. Department of the Interior,
86 M.S.P.R. 32, 37 (2000).
Background
Appellant's NTE Appointment and Supervision

Effective October 29, 2007, the appelJant received an excepted indefinite

appointment to the position of Associate Professor, AD-1701-00, NTE two years,
in the Research and Analysis division (R&A) of DLIFLC's Evaluation &

Standardization, Research and Analysis Directorate (ESRA). Flynn, slip op. Her

NTE appointment was extended through multiple extensions for shorter NTE

periods between October 2009 and October 20 I I, with a final extension issued on
October 27, 2011 for a two-year period ending on October 28, 2013. Id. During

the relevant time period, Gary Hughes served as the R&A Team Leader, and was

the appelJant's first level supervisor. Id. The undisputed record reflects that

Associate Provost for Evaluation and Standards Deniz Bilgin was the appelJant's
second level supervisor until January 20J3, when he became her third level

supervisor; from January 2013 through May 2013, Sherilyn Kam was the
appellant's second-line supervisor. Id.

September 2012 Notice of Warning for Unprofessional Behavior and 2012 Rating'
Beginning in the summer of 2012, Dr. Hughes initiated a process of

progressive discipline of the appellant that carried into the spring of 2013. Id.

App. 9

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 9 of 32

6
First, on September 10, 2012, Dr. Hughes issued the appellant a Notice of
Warning (NOW), based on an incident that occurred on August 21, 2012. Id.
Stating that the appellant had engaged in a verbal altercation using abusive
language directed to Pradyumna Amatya, the NOW advised the appellant to
"control your temper and respond to colleagues and support staff in a professional
and appropriate manner." Id. The record reflects that the appellant received the
NOW on September 10, 2012. Id. In her annual rating for fiscal year 2012 (FY
2012) ending on September 30, 2012, Dr. Hughes rated the appellant's overall
performance as Fair, specifying that the appellant Needs Improvement in one or
more objectives with a comment that the appellant's interpersonal relationships
need improvement. Id.
As set forth in greater detail below, through disclosures 2, 3, 5, 9, and 28,
the appellant asserts in her 2018 IRA that her 2012 interaction with Dr. Amat ya
was sexual harassment that she disclosed to, inter alia, Dr. Hughes, and that this
disclosure caused Dr. Hughes to lower her FY 2012 rating, and caused Dr.
Hug:kes to recommend allowing her NTE term appointment to lapse in 2013.
IAF, Tab 10 at 48-71. She also claims in her 2018 IRA that Dr. Hughes removed
her from the "Working Memory" project (WMP) in 2013, approximately two
months prior to her NTE term lapsing in October 2013. Id.; Flynn, slip op.
Events in FY2013 Forward
On October 3 0, 2012, Dr. Hughes issued the appellant a Letter of
Reprimand (LOR) for inappropriate behavior the appellant exhibited during an
October 18, 2012 staff meeting and in a separate discussion with Dr. Kam.
Flynn, slip op. On March 5, 2013, Dr. Hughes issued the appellant a proposed
two-day suspension for failure to follow instructions, defiance, and causing undue
workplace disruption. Id. In his proposed suspension letter, Dr. Hughes cited a
series of emails written by the appellant, quoting sections that he considered
"defiant, unproductive and burdensome to the work operations." Id. One of the
supporting specifications alleged that the appellant carbon-copied Assistant

App. 10

.

-- ~···· -~·- -

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 10 of 32

7

Commandant Colonel (COL) Laura Ryan on several of the emails cited in the
proposed suspension letter, despite COL Ryan's express prior warning to the
appellant not to include her in work emails of this sort. Id. According to the

proposal, she gave this instruction to the appellant on September 12, 2012. Id.

The proposed two-day suspension was upheld by Mr. Bilgin, who issued the
appellant's suspension notice on April 2, 2013 (Suspension). Id.
Assignment to Project

On March 20, 2013, Dr. Hughes assigned the appellant to serve as the
DLIFLC Coordinator for a project commonly referred to as the WMP. Id. The
WMP was one of approximately a dozen projects (referred to contractually as
"task orders") undertaken on behalf of DLIFLC by the University of Maryland's
Center for Advanced Study of Language (CASL), through a University Affiliated
Research Center agreement with the National Security Agency (NSA). Id. The
WMP was more formally referred to as the Cognitive and Working Memory
Training on Mobile Platforms, and was intended to test whether working memory
training could accelerate brain growth and improve cognitive functions above and
beyond instructional methods alone, and above and beyond a language-only tool.
Id.
Appellant's Project Concerns

Several days after being assigned to the WMP, the appellant emailed Dr.
Hughes to request that she be taken off the project, citing workload concerns and
a lack of contract management experience, and stating that she would need
significant training on contract management to successfully take on this new
project. Id. After Dr. Hughes sought to reassure the appellant that the WMP was
only a part-time effort and that contract management would remain the
responsibility of the designated certified contracting officer, not the appellant, the
appellant responded with a second email, in which she reiterated her earlier
concerns and also alleged that the assignment was an attempt to add undue stress
for her, undermine her morale, and prevent her from preparing for an upcoming

App. 11

--

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 11 of 32

8

equal employment opportunity (EEO) complaint investigation.

Id.

After

receiving a follow-up email from Dr. Hughes in which he attempted to address
each of the appellant's concerns, she agreed to begin work on the WMP. Id.

Recommendation to Allow Appellant's NTE Appointment to Lapse

In an email from the appellant to Dr. Hughes on April 24, 2013, the
appellant expressed concern that she was not getting responses to her requests for
information and documentation from either her DLIFLC project colleagues or
from CASL. Id. In a May 16, 2013 email, Assistant Director of the Testing
Directorate Jurgen Sottung, concurred with Dr. Hughes's recommendation to
remove the appellant from her NTE position, stating that the appellant
"challenges and questions everyone and everything in an endless stream of email,
which is engaging our contractors and 4-5 researchers in daily unproductive
exchanges." Id.
Appellant's Disclosures Pursued in Flynn-I and Lapse of NTE Appointment

According to the appellant, on May 22, 2013, the appellant made what was,
according to her 2014 petition, her first whistleblower disclosure by making a
report to the local Office of Inspector General (IG) for claims related to contract
fraud, waste, abuse, and mismanagement. See Flynn-I IAF, Tab 1 (prior OSC
complaint with attached timeline). To this point, the record reflects that on May
23, 2013, the appellant sent an email to the IG, along with several attachments,
requesting an investigation. Id; Flynn, slip op. The appellant alleged violations
of law, gross mismanagement, waste of funds, and abuse of authority, based on an
alleged failure to meet contractual requirements related to security; a lack of
deliverables and accountability; a lack of clarity on ownership of results; and
other contract issues. Flynn-I IAF, Tab 39 at 26-31; Flynn-I IAF, Tab I (prior
OSC complaint).
The agency was at the same time moving forward with a decision to modify
the scope of the WMP. Flynn, slip op. In an email dated May 23, 2013, Dr.
Hughes explained that, due to staffing issues related to the Department of

App. 12

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 12 of 32

9
Defense's planned sequestration and other logistical concerns, DLIFLC had
decided not to initiate further data collection or student involvement with the
WMP, and to instead focus on winding down the project. Dr. Hughes provided a
list of objectives, which included: obtaining a summary report from CASL based
on previous year's data; obtaining a "how to" manual on word list development;
receiving training instructions for DLIFLC staff so that the project could be
replicated in-house; and gaining access to software, technical specifications, and
staff training manuals. Id.
From late May 2013 until she was taken off the WMP in August 2013, the
appellant continued to convey her concerns about the project to DLIFLC
management. Id. While the appellant raised a variety of complaints related to
her NTE position in Flynn-I, she identified the ones she intended to pursue in
Flynn-I through the 2014 petition filed by Robert Atkins, one of her attorneys.

Flynn-I IAF, Tab I . In Flynn-I, the appellant complained about a "perilous lack
of oversight for the content, accuracy and scientific merit" of the WMP;
"dubious" management practices; waste of government resources; and the
agency's obstruction of the appellant's efforts to exercise due diligence in the
management of the WMP. Flynn, slip op.
In the meantime, management continued to weigh different disciplinary

'

options in connection with appellant's behavior. Id. In late May or early June,
2013, the agency began to draft a proposed 14-day suspension of the appellant,
which they intended to treat as a "last chance" disciplinary action short of
removal from her NTE position. Id. In an email dated June 19, 2013, Dr. Hughes
directed the appellant to stop sending "For Official Use Only" (FOUO)
documents to outside sources, warning her that continuation of the activity could
result in disciplinary action. Id. Rather than impose further discipline, however,
the agency ultimately chose not to renew the appellant's NTE appointment. Id.
On July 16, 2013, Mr. Bilgin emailed Assistant Commandant COL Ginger
Wallace, and notified her of his intent not to renew the appellant's NTE

App. 13

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 13 of 32

10

appointment. Id. In that same email, Mr. Bilgin requested that the appellant be
placed on administrative leave because of concerns of possible violent behavior
by the appellant. Id. In an email dated August 8, 2013, Dr. Hughes notified the
appellant that he did not recommend extending her NTE appointment. Id. On
August 14, 2013, Dr. Hughes notified the appellant that she was being taken off
the WMP, effective immediately, based on several factors, including her
unwillingness to focus on the contract modifications; her failure to complete a
review of the current deliverables necessary to close out the project; and
complaints from staff regarding her "hostile and harassing communications." Id.
Finally, in a memorandum dated August 27, 2013, Mr. Bilgin notified the
appellant of the agency's final decision not to extend her NTE appointment. Id.
The appellant's NTE appointment expired on October 28, 2013. Id.
Flynn-1 IRA

On or about November 21, 2013, the appellant initiated the prior OSC
complaint alleging that her NTE appointment was not extended in retaliation for
her whistleblowing disclosures. Id. There was no evidence in the record as to
any action taken by OSC in response to the appellant's 2013 OSC complaint. Id.
On June 6, 2014, the appellant filed Flynn-] as an IRA, and the Board convened a
hearing to address the merits of the appellant's claims. Id.

Following the

hearing, through a detailed initial decision, I concluded that the agency
established by clear and convincing evidence that it would still have decided not
to renew the appellant's NTE term appointment absent her whistleblowing
disclosures. Id. As such I denied the appellant's request for corrective action in

Flynn-] on the merits. Id. Flynn, slip op. became the final decision of the Board

on January 6, 2017 when the Board issued the NPFO. Flynn, NPFO.

December 1, 2017 OSC-11 and NTE Position

On December 1, 2017, referencing the same NTE position above, the
appellant filed another OSC-11 claiming that the agency retaliated against her
during the course of her NTE appointment because she made 29 disclosures.

App. 14

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 14 of 32

11
IAF, Tab 10 at 48-71. The appellant's submissions reflect that she initially
identified these disclosures through documents dated November 30, 2017 and
December 1, 2017, and opined, "I believe that the fact of multiple personnel
actions (adverse) lead to termination of my appointment and supports my original
claims of retaliation and job loss." Id. (original in mixed case lettering). The
appellant identified disclosures I through 29 respectively, as follows: 2
Jul-12 Flynn reported lack of transparency of promotion processes at
DLIFLC which was required to file a promotion appeal, and LCOL
Laura Ryan, the overseer of the promotion processes, threatened
Flynn with disciplinary measures and also told Flynn not to contact
her again. Flynn had informed LCOL Laura Ryan that promotion
processes at DLIFLC were shrouded and not transparent and violated
merit promotion requirements.
Aug-12 Flynn advised Gary Hughes, her supervisor, of sexual
harassment at her cubicle and Gary Hughes told Flynn that Flynn
would lose her job if she filed a formal complaint. Then Flynn told
Hughes that Flynn would have to file an EEO complaint to rectify
the situation.
Sep-12 Flynn had rejected sexual harassment at her cubicle by
Amatya, and Flynn's supervisor, Gary Hughes, wrote a letter of
warning to Flynn.... Flynn filed an EEO complaint (starting with the
required informal process) .. .
Sep-12 Flynn reported violation of Merit Promotion processes and
COL Ryan threatened disciplinary action if Flynn contacted Ryan,
failing to add a protected activity statement[.]
Oct-12 Flynn reported retaliation for filing EEO complaint and
Hughes ordered Flynn not to contact COL Ryan or Command Group
for any reason, failing to add an exception for protected activity
statement[.]
Dec-12 Flynn reported security violations by cc'ing supervisors and
Provost Fischer, before he retired and went to work for the contractor

2

The appellant's disclosures are set forth above in the same order utilized by the
appellant in h�r OSC-11 attachment. IAF, Tab 10 at 48-71.

App. 15

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 15 of 32

12
Jan-13 Flynn reported to COL Ryan, Flynn's third level supervisor,
that the act of not identifying supervisory chain of command was a
violation of federal employment law and not in accordance with
regulations or law ...
Jan-13 Flynn asked Kam for clarity in Kam's instruction, saying
Kam's instructions needed to be clear, so Flynn could complete an
assignment made by Kam, which Flynn completed in timely and
superior fashion ...
Mar-13 Flynn filed EEO complaints that included Hughes as subject,
and Hughes added the WM contract management assignment in
retaliation for EEO activity.
Mar-13 Flynn reported a security violation assigning Flynn to work
with contracts without regulatory training ...
Apr-13 Flynn report security violation when cc'd COL Ryan to
elevate a serious security mailer which Flynn believed to be illegal
regarding provision of sensitive reports to CASL contractors ...
Apr-13 Flynn named Bilgin
disclosures ...

in her EEO and

whistleblower

May-Aug 13 Flynn reported several contract violations to Sottung,
Hughes, Kam, Bilgin ...
Jul-13 Flynn filed complaints to OIG and Hughes threatened to
discipline Flynn if Flynn provided information outside the command
to her attorney II or others 11 • • •
Aug-13 Flynn reported to supervisors and NSA and CASL
representatives that the CASL contract modification was an extreme
waste of government funding ...
Aug-13 Flynn reported contract modification discrepancies to
supervisors and the provost Leaver ...
Aug-13 Flynn contacted Provost Leaver about fraud, waste, and
mismanagement of CASL contract ...
Aug-13 Flynn reported multiple contract lack of specifications and
performance criteria. and fraud, waste and abuse of the contract
modification ...
May-Aug 13 Flynn reported to Bilgin his illegal mismanagement of
the CASL contract ...
Aug-13 Flynn attempted to meet with COL Wallace ... and COL
Wallace denied Flynn an Open-Door meeting, effectively subjecting
Flynn to non-disclosure[.]

App. 16

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 16 of 32

13
Jun-13 Flynn requested training to perform her duties, and Hughes
denied Flynn's repeated request for training . . .
Jun-13 Flynn objected to being assigned contract duties without
training . . .
Jun-13 Flynn reported serious discrepancies in the CASL contract
and contract modification . . .
Aug-13 Flynn reported the fraud, waste, and mismanagement of the
CASL WM contract modification . . .
Sep-13 Flynn filed EEO complaint and reported on CASL contract
discrepancies and fraud, waste and abuse. Flynn also reported on
several occasions a hostile working environment and asked for
transfer . . .
9/2012 to 10/2013 Flynn reported unclear supervision and lack of
supervision. Hughes and Kam and Bilgin refused to c l arify who was
Flynn's supervisory chain of command . . .
Jul-13 Flynn reported to Kam that Kam was trying to implicate Flynn
in her nefarious practices related to the WM contract criminal
investigation . . .
9/2012 and 10/2013 Flynn notified Hughes that Flynn had and been
harassed by Amatya in August 2012 and Hughes threatened Flynn
with job loss if Flynn should complain formally. Flynn notified
Hughes that she would have to file an EEO complaint to rectify the
situation. Flynn entered into an EEO complaint process . . .
Oct-13 Flynn wrote emails to Bilgin to notify him of contract failure
and his participation in contract fraud, waste, abuse, and gross
mismanagement, and his unwillingness to intervene in hostile
environment . ..
Id. (disclosures I through 29 respectively)
Flynn-2 IRA

After receiving OSC's January 30, 2018 letter informing her that OSC was
unable to review her alleged disclosures based on the Board's decision in Flynn,
slip op., the appellant filed this IRA. IAF, Tab 1. In noting that it would not act
on the appellant's December 1, 2017 OSC complaint, OSC added that it was
unable to review the appellant's 2017 OSC complaints because the Board's
decision in Flynn, slip op., based on her 2013 OSC complaint, was binding on
OSC. Id.

App. 17

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 17 of 32

14
Through a detailed Order, the Board informed the appellant that it did not

appear to have jurisdiction over the appellant's instant appeal based on the
appellant's submissions and/or the final decision in her prior appeal in Flynn-I.

IAF, Tab 3. The appellant responded by arguing that while this IRA involves the

same NTE appointment as the one considered in Flynn-I , this IRA "introduces

several new causes of action" that she and her attorneys failed to assert in Flynn­
],

and that these new assertions were not addressed in Flynn, slip op. and NPFO.

IAF, Tab 10. On July 24, 2018, the appellant filed a motion to compel discovery.
IAF, Tab 16. Following a careful review of the record, the appellant's July 24,

2018 motion is denied for failure to meet the requirements of 5 C.F .R. section
1201.73(c) and (d)(3).
Appellant 's 29 Claimed Disclosures

-· ----

In setting forth disclosures 2 and 3, the appellant revisits
her misconduct
.

underl�h�r 2012 N@ discussed in Flynn-I by characterizing her 2012 verbal

·altercation with Dr. Amatya as an incident of sexual harassment by Dr. Amatya
that she then disclosed to, inter alia, Dr. Hughes in 2012, while working as an
NTE as set forth in greater detail above. She also states that she identified Mr.
Bilgin in her EEO complaint through disclosure 12, and asserts that she identified

him in her disclosures as the management official upholding the 2013 Suspension

as set forth above. However, as with disclosures 5 , 9, and 28, conveying to OSC
in 2017 that she disclosed sexual harassment in 2 012 to Dr. Hughes and others

through these other disclosures, is not a protected disclosure for the purposes of
an IRA. See, e. g., Spruill v. Merit Systems Protection Board, 978 F.2d 679 (Fed.

Cir. 1992). Similarly, stating that she filed an EEO complaint as set forth in
disclosure 25, discussed further below, withou� _more,�J� not _!l����saril] a

protected disclosure for the purposes of an IRA. See id.

The Board has stated

that disclosures that are limited to certain EEO matters covered under 5 U.S.C.
§ 2302(b)( l ) and (b)(9), are excluded from coverage under section 2302(b)(8).

Moreover, the appellant fails to sufficiently allege that these matters involved

App. 18

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 18 of 32

15

disclosures that a reasonable person in her position would believe evinced one of
the situations specified in section 2302(b){8). See, e.g. , Juffer, 80 M.S.P.R. 81.
Thus, even if the appellant made such an EEO complaint in 2012 as claimed,
shortly before receiving the related NOW, the appellant fails to nonfrivolously
allege that any of these EEO disclosures, identified as 2, 3, 5, 9, 12, and 28,
constitute a protected whistleblowing disclosure.

Id. ; Applewhite v. Equal

Employment Opportunity Commission, 94 M.S.P.R. 300 (2003).
Through disclosures l , 4, 7, 8, and 26, the appellant revisits her misconduct
underlying her 2013 Suspension discussed in Flynn-I by claiming that the
underlying instructions were unclear, claims that her superiors did not
sufficiently explain DLIFLC promotions to her, and claims that her chain of
command was unclear. Through her petition, she explains that this disclosure
involved the agency's failure to "meet legal requirement" resulting "in
violation of civil rights laws and merit systems principles[.]" IAF, Tab I . In
Flynn-I, the appellant alleged that while she was recommended for "advancement
to Professor" in February 2012, she had a "disagreement" with the Dr. Amatya in
August 2012, and that this disagreement was cited by her rater in assigning her a
rating of needs improvement in her October 2012 NTE review. Flynn- I IAF, Tab
60 at 5, 6; Flynn, slip op. The appellant declines to explain how reporting a "lack
of transparency" involved a protected disclosure, and she declines to adequately
clarify what legal requirements she is referencing in relation to her prior NTE
employment. IAF, Tab 1. Through disclosure 20, the appellant states that she
disclosed to COL Wallace that COL Wallace h'a d denied the appellant an open
door meeting with COL Wallace, and that Mr. Bilgin was similarly instructing the
appellant to stop contacting COL Wallace. To this point, the appellant previously
submitted a printed copy of an email from Mr. Bilgin, with copy to COL Wallace,
instructing the appellant to not contact COL Wallace. Flynn-I IAF, Tab 68 at 31;
Flynn, slip op. While I have no reason to doubt that the appellant desired to
transition from her NTE term appointment to a permanent position, and took issue

App. 19

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 19 of 32

16
with her super10rs as discussed in Flynn-I, the appellant fails to sufficiently
allege that these matters involved disclosures that a reasonable person in her
position would believe evinced one of the situations specified in section

2302(b)(8). See, e. g. , Juffer, 80 M.S.P.R. 81. To this point, while the appellant
made it clear to OSC that she disagreed with her superiors as set forth above and

made a series of assertions as set forth above, she fails to adequately show that

any of these claims involve properly exhausted protected disclosures that were

not within the discretion of management.

Ellison, 7 F.3d at 1036; Thomas,

77 M.S.P.R. at 236-37; Webb v. Department of the Interior, 122 M.S.P.R. 248
(201 5).

Thus, the appellant fails nonfrivolously allege that any of these

disclosures, identified as l , 4, 7, 8, and 26, constitute a protected whistleblowing

disclosure. Id.

Through disclosures 6, 10, 11, 13-19, 27, and 29, the appellant continues to
argue that she raised a variety of concerns about the WMP that was undertaken on

behalf of DLIFLC by CASL through an agreement with NSA as noted above and
in greater detail in Flynn, slip op.

While she claims that these are new

disclosures that were not previously asserted in Flynn-I, through her

jurisdictional submission in Flynn-I, she previously addressed disclosures 6, I0,

and 1 1 when she alleged that on December 6, 2012, the appellant she sent an

email to multiple management officials about "security violations[;]" on March
25, 2013, the appellant c9mplained to her superiors that it was improper to assign
her to work on the CASL contracts without significant training in regulations; and
after receiving the WMP assignment on March 20, 2013, the appellant reported

that it was a serious breach of security for the appellant, as an NTE, to work on
the WMP with CASL contractors, adding that the CASL researchers had not
shown her that the CASL researchers had completed background security checks.

Flynn-I IAF, Tabs 1, 33 (appellant's Flynn-I jurisdictional submission).

Similarly, with respect to disclosures 13 through 19 respectively, the appellant

previously asserted that she reported several WMP contract issues to management

App. 20

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 20 of 32

17
from May 2013 forward; filed complaints with the IG offices on various dates

including May 2013 and July 2013; took issue with WMP contract modifications

in July and August 2013, and requested an IG investigation; reported contract
discrepancies related to the contract modifications in July and August 2013, and
reported these concerns to her superiors; copied Provost Betty Leaver on a series

of messages critical of the WMP in

July and August 2013; made various

complaints about the lack of measurable performance by . CASL in July and

August 2013 on the WMP inclusive of the modifications referenced by the

appellant in her earlier complaint; and reported Mr. Bilgin's mismanagement of

the WMP contract to Mr. Bilgin in July 2013, then reported Mr. Bilgin' s WMP
contract management issues to others in August 2013, with copy to Mr. Bilgin.

Id. As with the first group of disclosures in this 2018 IRA discussed within this

paragraph above, disclosures 13 through 19 were previously addressed in Flynn-I

as set forth above in detail. Id. With respect to disclosure 27, the appellant's
earlier submissions reflect that in July 2013, she disclosed to Dr. Kam that he was
taking improper actions with respect to the WMP contract.

Id.

Turning to

disclosure 29, while the appellant claims that she sent an email to Mr. Bilgin in

October 2013 critical of the WMP and his involvement in the WMP, her earlier

IRA record reflects that she reported these matters to Mr. Bilgin directly and
indirectly on earlier occasions as noted above. Id. As with the first two groups

of disclosures in this 2018 IRA discussed within this paragraph above,
disclosures 27 and 29 were previously addressed in Flynn-I as set forth above.

Id. While not relevant to the question of whether disclosure 29 is protected for

the purposes of this IRA, I note that the appellant claims that she made this
disclosure to Mr. Bilgin in October 2013, well after she received. Mr. Bilgin's

August 27, 2013 letter informing her that her NTE term with DLIFLC would
lapse on October 28, 2013 as set forth in greater detail above. Id. Turning to

disclosures 21 through 24, the record reflects that the appellant previously alleged

in Flynn-I that in March 2013, her superiors refused the appellant's request for

App. 21

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 21 of 32

18
additional training in conjunction with her WMP duties as noted in part above; in
March 2013, she objected to being assigned to her WMP duties without training
as noted in part above; in May through July 2013, she reported discrepancies in
the CASL contract inclusive of modification issues; and reported matters
characterized by one of her attorneys, Heidi Rosenfelder, to OSC as waste, fraud,
abuse, and gross mismanagement of the WMP. Flynn-I IAF, Tabs 1, 33. As with
disclosure 24, disclosure 25 was previously alleged in Flynn-1 through a variety
of complaints collectively referred to by Ms. Rosenfelder as reports of waste,
fraud, abuse, and gross mismanagement of the WMP. Id.

As noted in the

Board's April 2, 2018 Order, based on the adjudication of the WMP, CASL, and
related matters in Flynn-], disclosures 6, 10, 11, 13�19, 21-24, 27, and 29 appear

to revisit the same assertions that she raised in detail through Flynn-], except that

her 2017 submissions to OSC largely consisted of conclusory assertions. Id.;
IAF, Tabs 1, 3, 10. Disclosure 20, discussed in the paragraph above, similarly
appears to revisit the same assertion raised in greater detail though Flynn-]. Id. ;
see Flynn-I IAF, Tab 68. Similarly, through disclosure 25, the appellant repeats

her assertion that she reported these matters. Id.

In Flynn-], the appellant submitted the underlying emails relevant to
disclosure 20, and previously asserted this same matter as her sixth enumerated
disclosure in her 2014 petition for appeal. Id. While the appellant subsequently
explained her assertions to the Board, her dated submissions indicate that this
information was not necessarily submitted to OSC; rather, the narratives were
written after OSC issued its January 30, 2018 closing letter based on the date on
these documents. Id. Even if the appellant had properly supported these
assertions in her 2017 OSC complaint, the appellant largely repeats the claims
she conveyed in her 2013 OSC complaint as set forth above through disclosures
6, 10, 11, 13-19, 20-24, 27, and 29, and fails to adequately explain why these
claims should not be precluded on the basis of claim preclusion. Id. While the
appellant's attorneys in Flynn-] opted to file the 2014 IRA prior to OSC

App. 22

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 22 of 32

19
completing its inquiry, then asserted specific issues within that earlier IRA as
explained in Flynn, slip op. and NPFO, the appellant' s submissions reflect that

these 13 issues overlap with the 2018 IRA as set forth above in detail. Id. As

pr�viously explained to the appellant, res judicata precludes parties from
relitigating issues that were, or could have been, raised in the prior action, and is
applicable if: the prior judgment was rendered by a forum with competent

jurisdiction; the prior judgment was a final judgment on the merits; and the same
cause of action and the same parties or their privies were involved in both cases.

Peartree v. U.S. Postal Service, 66 M.S.P.R. 332, 337 (1995); see Corpuz v.

Office of Personnel Management, 100 M.S.P.R. 560, 562-63 (2005). Here, it is

undisputed that the prior judgments in Flynn, slip op. and NPFO were rendered

by a forum with competent jurisdiction; the prior judgment was a final judgment
on the merits; and the same cause of action and the same parties were involved in

both cases. Id. Thus, whether or not the appellant recast her prior complain!�, I

find that res j udicata prechides the appellant from relitigating these specified

disclosures that were, or could have b��n. raised _in_ _Flrnn-1 based on a careful
review of her prior 2 013 OSC complaint with s11_ppleme11tation in 2014. Id.
.

...

··-

.

-

For the reasons set forth above and following a careful review of the entire

record, I conclude that the appellant _has not !!1�.d� a nonfrivolous allegation that
she made a protected disclosure. See id. ; Harvey V. Departme-,;t of the--Navy,

92 M.S.P.R. 5 1, � 9 (2002). While it remains cl�ar that_the_ appellan.t Jel_t entitled

----·· ·-·

to a permanent position and disagreed with the actions of various agency officials

---See, e.g. ,

as. she served as an NTE, I find
that the -appellant
has not made a nonfrivolous
- - -------- -- -- .

.

-

- ---·-- ------ - ----· ---

allegation ·-that these reported matters were
protected disclosures.
- - ---··-----·-·-·--···- ----.

_...:::,.

Gryder v. D;pa;t��nt ofTransp;;rklti�n, 100 M.S.P.R. 564 (2005); Mc Corcle v.
Department of Agriculture, 98 M.S.P .R. 363 (2005). The appellant has therefore
failed to show that IRA jurisdiction exists.

There is no law, rule, or regulation which provides an individual with a

direct right of appeal to the Board on any of the matters raised in this appeal, and

App. 23

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 23 of 32

20
the appellant has failed to nonfrivolously allege Board jurisdiction on any basis.
Thus, while the appellant may have been dissatisfied with her superiors,
coworkers, and contractors, the appellant fails to meet her burden of
nonfrivolously alleging Board jurisdiction over these matters on any basis.
DECISION
The appeal is DISMISSED.

FOR THE BOARD:

NOTICE TO APPELLANT
This initial decision will become final on September 4, 2018, unless a
petition for review is filed by that date. This is an important date because it is
usually the last day on which yo? can file a petition �or review with the Board.
However, if you prove that you received this initial decision more than 5 days
after the date of issuance, you :m,ay file a petition for review within 30 days after
the date you actually receive the initial decision. If you are represented, the 30day period begins to run upon either your receipt of the initial decision or its
receipt by your representative, whichever comes first. You must establish the
date on which you or your representative received it. The date on which the initial
decision becomes final also controls when you can file a petition for review with
one of the authorities discussed in the "Notice of Appeal Rights" section, below.
The paragraphs that follow tell you how and when to file with the Board or one of
those authorities. These instructions are important because if you wish to file a
petition, you must file it within the proper time period.
BOARD REVIEW
You may request Board review of this initial decision by filing a petition
for review.

App. 24

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 24 of 32

21
If the other party has already filed a timely petition for review, you may
file a cross petition for review. Your petition or cross petition for review must
state your objections to the initial decision, supported by references to applicable
laws, regulations, and the record. You must file it with:
The Clerk of the Board
Merit Systems Protection Board
1615 M Street, NW.
Washington, DC 20419
A petition or cross petition for review may be filed by mail, facsimile (fax),
personal or commercial delivery, or electronic filing. A petition submitted by
electronic filing must comply with the requirements of 5 C.F.R. § 1201.14, and
may

only

be

accomplished

at

the

Board's

e-Appeal

website

(https://e-appeal.mspb.gov ).
NOTICE OF LACK OF QUORUM
The Merit Systems Protection Board ordinarily is composed of three

members, 5 U.S.C. § 1201, but currently only one member is in place. Because a
majority vote of the Board is required to decide a case, see 5 C.F .R. § l 200.3(a),
(e), the Board is unable to issue decisions on petitions for review filed with it at
this time. See 5 U.S.C. § 1203. Thus, while parties may continue to file petitions
for review during this period, no decisions will be issued until at least one
additional member is appointed by the President and confirmed by the Senate.
The lack of a quorum does not serve to extend the time limit for filing a petition
or cross petition. Any party who files such a petition must comply with the time
limits specified herein.
For alternative review options, please consult the section below titled
"Notice of Appeal Rights," which sets forth other review options.
Criteria for Granting a Petition or Cross Petition for Review

Pursuant to 5 C.F.R. § 1201.115, the Board normally will consider only
issues raised in a timely filed petition or cross petition for review. Situations in

App. 25

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 25 of 32

22
which the Board may grant a petition or cross petition for review include, but are
not limited to, a showing that:
(a) The initial decision contains erroneous findings of material fact. (1)
Any alleged factual error must be material, meaning of sufficient weight to
warrant an outcome different from that of the initial decision. (2) A petitioner
who alleges that the judge made erroneous findings of material fact must explain
why the challenged factual determination is incorrect and identify specific
evidence in the record that demonstrates the error. In reviewing a claim of an
erroneous finding of fact, the Board will give deference to an administrative
judge's credibility determinations when they are based, explicitly or implicitly,
on the observation of the demeanor of witnesses testifying at a hearing.
(b) The initial decision is based on an erroneous interpretation of statute or
regulation or the erroneous application of the law to the facts of the case. The
petitioner must explain how the error affected the outcome of the case.
(c) The judge's rulings during either the course of the appeal or the initial
decision were not consistent with required procedures or involved an abuse of
discretion, and the resulting error affected the outcome of the case.
(d) New and material evidence or legal argument is available that, despite
the petitioner's due diligence, was not available when the record closed. To
constitute new evidence, the information contained in the documents, not just the
documents themselves, must have been unavailable despite due diligence when
the record closed.
As stated in 5 C.F.R. § 1201.114(h), a petition for review, a cross petition
for review, or a response to a petition for review, whether computer generated,
typed, or handwritten, is limited to 30 pages or 7500 words, whichever is less. A
reply to a response to a petition for review is limited to 15 pages or 3750 words,
whichever is less. Computer generated and typed pleadings must use no less than
12 point typeface and I-inch margins and must be double spaced and only use one
side of a page. The length limitation is exclusive of any table of contents, table of

App. 26

Case: 18-73009, ...11/05/2018,
ID: 11072452, DktEntry: 1-4, Page 26 of 32
.

23
23
authorities,
certificate of
of service.
service. A
A request
for leave
leave to
file aa
authorities, attachments,
attachments, and
and certificate
request for
to file

pleading
that exceeds
limitations prescribed
paragraph must
be
pleading that
exceeds the
the limitations
prescribed in
in this
this paragraph
must be
received
by the
the Clerk
Clerk of
of the
the Board
least 33 days
before the
the fi
filing
Such
received by
Board at
at least
days before
ling deadline.
deadline. Such

requests
the reasons
waiver as
as well
as the
desired length
the
well as
the desired
length of
of the
requests must
must give
give the
reasons for
for aa waiver

in exceptional
exceptional circumstances.
circumstances. The
The page
pleading
granted only
pleading and
and are
are granted
only in
page and
and word
word
to
limits set
forth above
limits. Parties
Parties are
not expected
expected or
or required
limits
set forth
above are
are maximum
maximum limits.
are not
required to
submit pleadings
of the
the maximum
length. Typically,
Typically, aa well-written
for
submit
pleadings of
maximum length.
well-written petition
petition for
review is
between 55 and
10 pages
long.
review
is between
and 10
pages long.

If
you file
or cross
cross petition
for review,
review, the
the Board
Board will
obtain the
If you
file aa petition
petition or
petition for
will obtain
the

record in
your case
case from
the administrative
judge and
you should
not submit
submit
record
in your
from the
administrative judge
and you
should not
anything
to the
the Board
Board that
that is
part of
of the
A petition
petition for
for review
anything to
is already
already part
the record.
record. A
review

the date
of the
Board no
no later
later than
date this
initial
must be
be filed
filed with
Clerk of
this initial
must
with the
the Clerk
the Board
than the
if this
this initial
initial decision
is received
by you
you or
or your
your
decision
becomes final,
final, or
or if
decision becomes
decision is
received by
of issuance,
issuance, 30
after the
representative more
than 55 days
the date
representative
more than
days after
after the
date of
30 days
days after
the date
date

you or
or your
your representative
representative actually
received the
the initial
initial decision,
actually received
decision, whichever
whichever was
was
you
first. If
you claim
claim that
representative both
both received
If you
that you
you and
and your
your representative
received this
this decision
decision
first.

more
after its
to prove
to the
the Board
the
more than
than 55 days
days after
its issuance,
issuance, you
you have
have the
the burden
burden to
prove to
Board the

of receipt.
receipt. You
You must
also show
show that
that any
any delay
delay in
receiving the
initial
earlier date
date of
must also
in receiving
the initial
earlier

of receipt.
receipt. You
You may
decision was
not due
to the
the deliberate
evasion of
decision
was not
due to
deliberate evasion
may meet
meet your
your

burden by
by filing
filing evidence
evidence and
sworn or
or under
under penalty
of perjury
burden
and argument,
argument, sworn
penalty of
perjury (see 55
C.F.R.
Part 1201,
1201, Appendix
Appendix 4)
support your
your claim.
claim. The
The date
of filing
filing by
by mail
C.F.R. Part
4) to
to support
date of
mail

is determined
by the
the postmark
date. The
The date
of filing
filing by
by fax
fax or
or by
by electronic
electronic
is
determined by
postmark date.
date of

is the
the date
of submission.
submission. The
The date
of filing
filing by
by personal
filing
filing is
date of
date of
personal delivery
delivery is
is the
the

of filing
filing by
by commercial
commercial
date
on which
the Board
receives the
The date
date on
which the
Board receives
the document.
document. The
date of

delivery is
date the
delivery
is the
the date
the document
commercial delivery
document was
was delivered
delivered to
to the
the commercial
delivery

petition may
may be
service. Your
Your petition
be rejected
to you
you fail
fail to
service.
rejected and
and returned
returned to
you if
if you
to provide
provide
of how
how you
you served
served your
your petition
on the
other party.
C.F.R.
aa statement
statement of
petition on
the other
party. See 55 C.F.R.

1201.40). If
the petition
petition is
is filed
filed electronically,
electronically, the
the online
online process
itself will
§§ 1201.40).
If the
process itself
will

serve
C.F.R. §§ 1201.140)(1).
1201.140)(1).
serve the
the petition
petition on
on other
other e-filers.
e-filers. See 55 C.F.R.

App. 27

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 27 of 32
24
24

A cross petition for review must be filed within 25 days after the date of
service of the petition for review.
NOTICE TO AGENCY/INTERVENOR

The agency or intervenor may file a petition for review of this initial
decision in accordance with the Board's regulations.
NOTICE OF APPEAL RIGHTS

You may obtain review of this initial decision only after it becomes final,
as explained in the "Notice to Appellant" section above. 5 U.S.C. § 7703(a)(l).
By statute, the nature of your claims determines the time limit for seeking such
review and the appropriate forum with which to file.

5 U.S.C. § 7703(b).

Although we offer the following summary of available appeal rights, the Merit
Systems Protection Board does not provide legal advice on which option is most
appropriate for your situation and the rights described below do not represent a
statement of how courts will rule regarding which cases fall within their
jurisdiction. If you wish to seek review of this decision when it becomes final,
you should immediately review the law applicable to your claims and carefully
follow all filing time limits and requirements.

Failure to file within the

applicable time limit may result in the dismissal of your case by your

chosen forum.
Please read carefully each of the three main possible choices of review
below to decide which one applies to your particular case. If you have questions
about whether a particular forum is the appropriate one to review your case, you
should contact that forum for more information.
(1) Judicial review in general. As a general rule, an appellant seeking

judicial review of a final Board order must file a petition for review with the U.S.
Court of Appeals for the Federal Circuit, which must be received by the court

App. 28

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 28 of 32

25
25

55 U.S.C.
U.S.C.

within
60 calendar
calendar days
days of
of the
becomes final.
final.
within 60
the date
date this
this decision
decision becomes
7703(b)(l)(A).
§§ 7703(b)(l
)(A).

If you
petition for
to the
Appeals for
the
If
you submit
submit aa petition
for review
review to
the U.S.
U.S. Court
Court of
of Appeals
for the

Federal Circuit,
Circuit, you
you must
submit your
court at
must submit
your petition
petition to
to the
the court
at the
the
Federal
following address:
following
address:

-

of Appeals
Appeals
U.S. Court
Court of
U.S.
for the
the Federal
Federal Circuit
Circuit
for
717 Madison
Madison Place,
Place, N.W.
N.W.
717
Washington, D.C.
D.C. 2043
204399
Washington,

,

Additional
information about
Court of
of Appeals
for the
Federal
Additional information
about the
the U.S.
U.S. Court
Appeals for
the Federal

Circuit
is available
available at
at the
the court's
websitt www.cafc.uscourts.guv0uf
www.cafc.uscourts.guv0uf particular
particular
Circuit is
court's websitt
S..; nmuoners
nmuoners anu
anu fippeuams,"
relevance is
the court'
court'ss "Guide
for Pro
Pro S..;
relevance
is the
"Guide for
fippeuams," which
which is
is

-· ---------- ------- --------

contained within
court'ss Rules
Rules
of Practice,
Practice, and
Forms 5,
10, and
contained
within the
the court'
of
and Forms
5, 6,
6, 10,
and 11.
11.
.
.... --

.

If
interested in
securing pro
bono representation
for an
appeal to
to
If you
you are
are interested
in securing
pro bono
representation for
an appeal

of Appeals
for the
the Federal
Federal Circuit,
Circuit, you
you may
our website
the U.S.
Court of
the
U.S. Court
Appeals for
may visit
visit our
website at
at

http://www.mspb.gov/probono
for information
information regarding
regarding pro
bono representation
http://www.mspb.gov/probono for
pro bono
representation

for
for Merit
Merit Systems
Systems Protection
Protection Board
Board appellants
before the
Federal Circuit.
Circuit. The
The
appellants before
the Federal
Board neither
the services
by any
nor warrants
Board
neither endorses
endorses the
services provided
provided by
any attorney
attorney nor
warrants that
that
any
attorney will
representation in
given case.
case.
any attorney
will accept
accept representation
in aa given
(2) Judicial
Judicial
(2)

or EEOC
EEOC
or

review of
of cases
involving aa claim
claim
review
cases involving

of
of

discrimination. This
This option
option applies
to you
you only
only if
you have
claimed that
that you
you
applies to
if you
have claimed
discrimination.

were
by an
an action
that is
is appealable
to the
the Board
Board and
such action
were affected
affected by
action that
appealable to
and that
that such
action
was based,
based, in
in whole
whole or
or in
on unlawful
unlawful discrimination.
so, you
you may
may obtain
obtain
was
in part,
part, on
discrimination. If
If so,
of this
this decision-including
of your
your discrimination
judicial
review of
judicial review
decision-including aa disposition
disposition of
discrimination

claims-by
action with
with an
an appropriate
appropriate U.S.
U.S. district
district court
(not the
the
claims-by filing
filing aa civil
civil action
court (not

U.S.
within 30
30 calendar
after this
U.S. Court
Court of
of Appeals
Appeals for
for the
the Federal
Federal Circuit),
Circuit), within
calendar days
days after
this
decision becomes
becomes final
final under
under the
the rules
rules set
set out
out in
in the
the Notice
Notice to
to Appellant
section,
decision
Appellant section,
above.
above.

U.S.C. §§ 7703(b)(2);
7703(b)(2); see
see Perry
Perry v.
v. Merit
Merit Systems
Systems Protection
Protection Board,
Board,
55 U.S.C.

582 U.S.
_._
1377 S.
S. Ct.
Ct. 1975
1975 (2017).
(2017). If
involves aa claim
of
582
U.S. _
._ ,, 13
If the
the action
action involves
claim of

App. 29

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 29 of 32

26
discrimination based on race, color, religion, sex, national
national origin, or a disabling
condition, you may be entitled to representation by a court-appointed lawyer
lawyer and

to waiver of
of any requirement of
of prepayment of
of fees, costs, or other security. See
See
42 U.S.C. § 2000e-5(f) and 29 U.S.C. § 794a.
Contact information for U.S. district courts can be found at their respective
link below:
websites, which can be accessed through the link

http://www.uscourts.gov/Court Locator/CourtWebsites.aspx.
Alternatively, you may request review by the Equal
Equal Employment
of your discrimination claims only, excluding
Opportunity Commission (EEOC) of
alll other issues. 55 U.S.C. § 7702(b)(l). You must file any such request with the
al
of Federal Operations within 30 calendar days after this decision
EEOC's Office of
final as explained above. 55 U.S.C. § 7702(b)(l
7702(b)(l).
becomes final
).

If you submit a request for review to the EEOC by regular U.S. mail, the
If
of the EEOC is:
address of
of Federal
Federal Operations
Office of
Equal Employment Opportunity Commission
Equal
P .0. Box 77960
·
Washington, D.C. 20013
Washington,
If
If you submit a request for review to the EEOC via commercial
commercial delivery or

by a method requiring a signature, it must be addressed to:
of Federal
Federal Operations
Office of
Equal Employment Opportunity Commission
131 M Street, N.E.
131
Suite 5SW12G
Washington, D.C. 20507
Washington,
(3) Judicial

review

pursuant

to

the

Whistleblower

Protection

if you have raised
Enhancement Act of 2012. This option applies to you only if

of reprisal
reprisal for whistleblowing disclosures under 55 U.S.C. § 2302(b)(8) or
claims of
listed in 55 U.S.C. § 2302(b)(9)(A)(i), {B), (C}, or (D).
other protected activities listed
If
challenge
If so, and you wish to chal
lenge the Board's rulings on your whistleblower claims

all other issues, then you may file a petition for judicial
judicial review
only, excluding all

App. 30

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 30 of 32

27
with the U.S. Court of Appeals for the Federal Circuit or any court of
of appeals of

competent jurisdiction.

The court of
of appeals must receive your petition for

review within 60 days of the date this decision becomes final under the rules set
7703(b)(l)(B).
out in the Notice to Appellant section, above. 55 U.S.C. § 7703
(b)(l)(B).
If
of Appeals for
If you submit a petition for judicial review to the U.S. Court of

the Federal Circuit, you must submit your petition to the court at the
following address:
U.S. Court of
of Appeals
for the Federal Circuit
717 Madison Place, N.W.
Washington, D.C. 20439
Washington,
of Appeals for the Federal
Additional information about the U.S. Court of
Of particular
Circuit is available at the court's website, www.cafc.uscourts.gov. Of

relevance is the court's "Guide for Pro Se Petitioners and Appellants," which is
contained within the court's Rules of
of Practice, and Forms 5, 6, 10,
10, and 11.
11.
If
If you are interested in securing pro bono representation for an appeal to
'
of Appeals for the Federal Circuit,
the U.S. Court of
you may visit our website at

http://www.mspb.gov/probono for information regarding pro bono representation
for Merit Systems Protection Board appellants before the Federal Circuit. The
Board neither endorses the services provided by any attorney nor warrants that
any attorney will accept representation in a given case.
Contact information for the courts of
of appeals can be found at their
respective websites, which can be accessed through the link below:
http://www.uscourts.gov/Court Locator/CourtWebsites.aspx

App. 31

Case: 18-73009, 11/05/2018, ID: 11072452, DktEntry: 1-4, Page 31 of 32

CERTIFICATE OF SERVICE
I certify that the attached Document(s) was (were) sent as indicated this
day to each of the following:
Appellant
U.S. Mail

Kathryn A. Flynn
2161 Forbes Avenue
2161
Clare~ont, CA 91711
91711
Clare�ont,

Agency Representative
Electronic Mail

L.. Halperin, Esq.
Michael L
Department of the Army
Office of the Staff Judge Advocate
Language Center (DLIFLC) & POM
1336 Plummer Street, Bldg. 275
1336
Monterey, CA 93944-3327

July 31, 2018
(Date)

'1:ayla Silvestre
Paralegal Specialist

App. 32

Case: 18-73009, 08/20/2020, ID: 11797289, DktEntry: 43, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
AUG 20 2020
MOLLY C. DWYER, CLERK

KATHRYN A. FLYNN,

No. 18-73009

Petitioner,

U.S. COURT OF APPEALS

MSPB No. SF-1221-18-0406-W-1
Merit Systems Protection Board

v.
UNITED STATES DEPARTMENT OF
THE ARMY,

ORDER

Respondent.
Before:

TASHIMA, BYBEE, and WATFORD, Circuit Judges.

The panel has voted to deny the petition for panel rehearing.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed. R.
App. P. 35.
Flynn’s petition for panel rehearing and petition for rehearing en banc
(Docket Entry No. 42) are denied.
No further filings will be entertained in this closed case.

App. 33

UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
WESTERN REGIONAL OFFICE
KATHRYN A. FLYNN,
Appellant,

DOCKET NUMBER
SF-1221-14-0620-W-1

v.
DEPARTMENT OF THE ARMY,
Agency.

DATE: March 21, 2016

Kathryn A. Flynn, Claremont, California, pro se.
Michael L. Halperin, Esquire, Monterey, California, for the agency.
BEFORE
Franklin M. Kang
Administrative Judge
INITIAL DECISION
INTRODUCTION
The agency elected not to extend the appellant’s not-to-exceed (NTE)
appointment as an Associate Professor at the agency’s Defense Language
Institute and Foreign Language Center (DLIFLC) in Monterey, California, ending
the appellant’s excepted NTE appointment effective October 28, 2013. Initial
Appeal File (IAF), Tab 7 at 1713, 1716; 1 IAF, Tab 1 at 49, 50. On November 21,
2013, the appellant filed a complaint with the Office of Special Counsel (OSC),
alleging that the agency declined to extend her NTE appointment based on her
1

Pinpoint citations to the IAF refer to the page numbers affixed upon entry and/or
submission of a referenced item into the Board’s e-Appeal Online repository.

App. 34

2
whistleblowing activities. IAF, Tab 1 at 6, 15-32. The appellant electronically
filed an individual right of action appeal (IRA) with the Board on June 6, 2014,
more than 120 days after seeking corrective action from OSC, alleging that the
agency’s decision not to extend her term appointment was in retaliation for her
whistleblowing activities. IAF, Tab 1; see 5 U.S.C. § 1214(a)(3)(B). The Board
has jurisdiction over this matter pursuant to 5 U.S.C. § 1221. At the request of
the appellant, a hearing was convened. Hearing Compact Disc (HCD). For the
reasons explained below, the request for corrective action is DENIED.
ANALYSIS AND FINDINGS
Background
Appellant’s NTE Appointment and Supervision
Effective October 29, 2007, the appellant, with a service computation date
of October 29, 2007, received an excepted indefinite appointment to the position
of Associate Professor, AD-1701-00, NTE two years, in the Research and
Analysis division (R&A) of DLIFLC’s Evaluation & Standardization, Research
and Analysis Directorate (ESRA). IAF, Tab 7 at 1721. Her appointment was
extended through multiple extensions for shorter NTE periods between October
2009 and October, 2011, with a final extension issued on October 27, 2011 for a
two-year period ending on October 28, 2013. IAF, Tab 7 at 1716-1720.
During the relevant time period, Gary Hughes served as the R&A Team
Leader, and was the appellant's first level supervisor. IAF, Tab 7 at 155; HCD
(testimony of Dr. Hughes). The undisputed record reflects that Associate Provost
for Evaluation and Standards Deniz Bilgin was the appellant's second level
supervisor until January 2013, when he became her third level supervisor; from
January 2013 through May 2013, Sherilyn Kam was the appellant’s second-line
supervisor. See IAF, Tab 7 at 5, 155.
DLIFLC provides resident instruction in two dozen languages to active and
reserve components of domestic and foreign uniformed personnel, as well as

App. 35

3
civilian personnel working in the Federal government and various law
enforcement agencies.

IAF, Tab 7 at 1763.

The appellant’s primary role at

DLIFLC was to serve as a Program Evaluator, where she was responsible for,
inter alia, initiating, designing, leading, and conducting comprehensive program
evaluations; establishing evaluation program priorities; and developing the
capacity of DLIFLC departments to independently conduct program evaluations.
IAF, Tab 7 at 1759-60.
September 2012 Notice of Warning for Unprofessional Behavior and 2012 Rating
For most of her time at DLIFLC, the appellant had an exemplary work
record, and regularly received outstanding performance reviews. See IAF, Tab 59
at 29-52; HCD (testimony of Dr. Hughes). However, beginning in the summer of
2012, Dr. Hughes initiated a process of progressive discipline of the appellant
that carried into the spring of 2013.

Id.

First, on September 10, 2012, Dr.

Hughes issued the appellant a Notice of Warning (NOW), based on an incident
that occurred on August 21, 2012.

IAF, Tab 7 at 1748-49.

Stating that the

appellant had “engaged in a verbal altercation using abusive language directed to
Dr. Pradyumna Amatya[,]” the NOW advised the appellant to “control your
temper and respond to colleagues and support staff in a professional and
appropriate manner.”

Id.

The record reflects that the appellant received the

NOW on September 10, 2012 and was given an opportunity to comment on the
contents. Id.
In her annual rating for fiscal year 2012 (FY 2012) ending on September
30, 2012, Dr. Hughes rated the appellant’s overall performance as Fair,
specifying that the appellant Needs Improvement in one or more objectives with a
comment that the appellant’s interpersonal relationships need improvement. Id.
at 1752; HCD (testimony of Dr. Hughes).
October 2012 Letter of Reprimand (LOR) for Unprofessional Behavior
On October 30, 2012, Dr. Hughes issued the appellant a LOR for
inappropriate behavior the appellant exhibited during an October 18, 2012 staff

App. 36

4
meeting and in a separate discussion with Dr. Kam.
Specifically,

Dr.

Hughes

disciplined

the

IAF, Tab 7 at 1745.

appellant

for

engaging

in

“inappropriately confrontational and disrespectful behavior toward the Acting
Dean, Dr. Sherilyn Kam” and Dr. Hughes during the meeting. Id.
2013-14 Events that Followed
On March 5, 2013, Dr. Hughes issued the appellant a proposed two-day
suspension for failure to follow instructions, defiance, and causing undue
workplace disruption. Id. at 1740. In his proposed suspension letter, Dr. Hughes
cited a series of emails written by the appellant, quoting sections that he
considered “defiant, unproductive and burdensome to the work operations.” Id.
One of the supporting specifications alleged that the appellant carbon-copied
Assistant Commandant Colonel (COL) Laura Ryan on several of the emails cited
in the proposed suspension letter, despite COL Ryan’s express prior warning to
the appellant not to include her in work emails of this sort. Id. According to the
proposal, she gave this instruction to the appellant on September 12, 2012. Id.
The proposed two-day suspension was upheld by Mr. Bilgin, who issued the
appellant’s suspension notice on April 2, 2013 (Suspension). Id. at 1734.
On March 20, 2013, while the proposed suspension was still pending, Dr.
Hughes assigned the appellant to serve as the DLIFLC Coordinator for a project
commonly referred to as the “Working Memory” project (WMP). IAF, Tab 33 at
35-36.

The WMP was one of approximately a dozen projects (referred to

contractually as “task orders”) undertaken on behalf of DLIFLC by the University
of Maryland’s Center for Advanced Study of Language (CASL), through a
University Affiliated Research Center agreement with the National Security
Agency (NSA). IAF, Tab 59 at 71; HCD (testimony of Dr. Hughes); IAF, Tab 7
at 6. The WMP was more formally referred to as the Cognitive and Working
Memory Training on Mobile Platforms, and was intended to test whether working
memory training could accelerate brain growth and improve cognitive functions
above and beyond instructional methods alone, and above and beyond a language-

App. 37

5
only tool. IAF, Tab 59 at 71, 79, 80. The training regimen was designed as an
iPad application that offered training in Iraqi Arabic, Spanish and Persian Farsi.
Id. at 1037, 1087-89. The record reflects that CASL had been assigned as the
contractor for the project since 2011.

Id. at 72.

While the record does not

indicate the total amount of funds expended by DLIFLC for the WMP, the record
shows that the agency appropriated $716,632.74 in April 2012 for the second
phase of the WMP, for a performance period from September 2012 through
August 2013. Id. at 98.
Several days after being assigned to the WMP, the appellant emailed Dr.
Hughes to request that she be taken off the project, citing workload concerns and
a lack of contract management experience, and stating that she would need
significant training on contract management to successfully take on this new
project. IAF, Tab 33 at 43. After Dr. Hughes sought to reassure the appellant
that the WMP was only a part-time effort and that contract management would
remain the responsibility of the designated certified contracting officer, not the
appellant, the appellant responded with a second email, in which she reiterated
her earlier concerns and also alleged that the assignment was an attempt to add
undue stress for her, undermine her morale, and prevent her from preparing for an
upcoming EEO investigation. Id. at 40-42. After receiving a follow-up email
from Dr. Hughes in which he attempted to address each of the appellant’s
concerns, she agreed to begin work on the WMP. Id. at 39.
The record reflects that the appellant began to work on the WMP starting in
early April 2013, reviewing project documents and exchanging emails with CASL
staff and with her DLIFLC colleagues regarding the project’s scope, the
availability of background documents, necessary points of contact, and other
project-related matters. IAF, Tab 34 at 7-26. The record also reflects that the
appellant soon began to develop concerns as to the overall management and
feasibility of the project. For example, in an email from the appellant to Dr.
Hughes on April 24, 2013, the appellant expressed concern that she was not

App. 38

6
getting responses to her requests for information and documentation from either
her DLIFLC project colleagues or from CASL. IAF, Tab 36 at 53.
In an email to CASL staff dated May 1, 2013, the appellant relayed
concerns expressed by DLIFLC instructors that the working memory exercises
contained spelling errors, and of her expectation that CASL would present
DLIFLC staff with a product that had already been properly proofed. IAF, Tab
36 at 46. On May 2, 2013, the appellant sent an internal email in which she
raises concerns that, because CASL had not yet collected data on the effect of the
training exercises on the acquisition of Iraqi Arabic – the first language to be
tested – it would not be a prudent use of agency resources for CASL to move
forward with testing on the next two languages, Spanish and Persian Farsi. IAF,
Tab 35 at 53; see id. at 60.
By late April, 2013, the appellant’s internal working relationship with Dr.
Hughes and other DLIFLC colleagues was deteriorating to the point that Dr.
Hughes sent an email, dated April 25, 2013, to DLIFLC’s human resources staff
with a request to initiate the appellant’s removal. IAF, Tab 37 at 5. In that
email, Dr. Hughes expressed significant concern regarding the appellant’s “poor
behavior[,]” which he claimed “has only accelerated and become more subversive
since her suspension[,]” citing difficult email exchanges that he considered
“insubordinate” and which he claimed were undermining staff morale and adverse
impacting project deadlines. Id.
In an apparent reference to the September 2012 NOW and October 2012
LOR, in addition to the explicit reference to the April 2013 Suspension, Dr.
Hughes explained that he wanted to proceed with dismissing the appellant
because he had “pursued every avenue of progressive discipline process
addressing Dr. Flynn’s behavior but to no avail.” Id. Dr. Hughes noted that the
appellant was copying one of her attorneys in responding to communications
about assigned projects. Id.

App. 39

7
Several weeks later, in a May 15, 2013 email to DLIFLC human resources
staff, Dr. Hughes reiterated his request to dismiss the appellant, claiming that the
appellant was trying to “entrap” him and other staff “in some type of unspecified
issue or wrongdoing[,]” and that she had created “a hostile working environment
for [Dr. Hughes] and the staff at large.” Id. at 6. In a May 16, 2013 email,
Assistant Director of the Testing Directorate Jurgen Sottung, concurred with Dr.
Hughes’s recommendation to remove the appellant, stating that the appellant
“challenges and questions everyone and everything in an endless stream of email,
which is engaging our contractors and 4-5 researchers in daily unproductive
exchanges.”

IAF, Tab 59 at Subtab 5 at 2 of 5.

Dr. Hughes again raised

problems regarding Dr. Flynn’s behavior in a May 22, 2013 email to DLIFLC
human resources staff, and indicated that he had begun receiving complaints from
CASL regarding her behavior. IAF, Tab 37 at 15. That same day, Dr. Hughes
provided Mr. Bilgin and Dr. Kam with documentation regarding the appellant’s
prior discipline and began to draft a proposed removal letter. Id. at 22-23.
An email exchange between DLIFLC human resources staff and Mr. Bilgin
indicates that a removal letter was prepared by the agency on May 23, 2013, and
that Mr. Bilgin was planning to issue the letter to the appellant that day. IAF,
Tab 36 at 7, 9.

However, prior to the issuance of the letter, Mr. Bilgin was

informed that a “short letter” of removal (without 30-day advanced notice and
MSPB appeal rights) could not be issued to the appellant, and that removal letter
was never issued. Id. at 9. Dr. Hughes thereafter began to prepare a separate
proposed removal letter and asked DLIFLC human resources staff if the appellant
could be removed from the workplace while her appeal period ran, indicating
concern that the appellant’s behavior was becoming “egregious” and that he
expected it to only worsen. Id. at 8. During this same time period, the appellant
continued to raise concerns regarding the WMP, with her concerns growing more
detailed and emphatic as she further familiarized herself with project details. In a
May 7, 2013 email to several of her colleagues, the appellant wrote that she was

App. 40

8
“finding a lot of gaps in the provision of information, and … evidence of nonprovision of various requirements” including security requirements. IAF, Tab 35
at 59. In a May 15, 2013 email to Dr. Hughes, the appellant complained about
the difficult position in which she had been placed in trying to “bring a nefarious
contract situation out of its tailspin.” IAF, Tab 7 at 443-44. On May 20, 2013,
the appellant emailed Dr. Hughes with a list of “major concerns” with the WMP
contract, including a failure on CASL’s part to meet security requirements
outlined in the Work Performance Statement; CASL’s failure to complete the
iPad applications required for the study; and failure to “identif[y] criteria for
contract deliverables ... with no proven concept.” Id. at 486-489. She followed
up with a separate email shortly thereafter in which she notified Dr. Hughes and
other DLIFLC colleagues of her intent to “request a formal security and contract
review by an independent party.” IAF, Tab 35 at 35. Dr. Hughes responded that
if the appellant “felt there is some impropriety regarding [the WMP] project, you
have the right to request a review.” Id. at 34.
According to the appellant, on May 22, 2013, the appellant made what was,
according to her OSC Complaint, her first whistleblower disclosure by making a
report to the local Office of Inspector General (IG) for claims related to contract
fraud, waste, abuse, and mismanagement. See IAF, Tab 1 (OSC Complaint with
attached timeline). 2 To this point, the record reflects that on May 23, 2013, the
appellant sent an email to the IG, along with several attachments, requesting an
investigation. Id; IAF, Tab 36 at 50. The appellant alleged violations of law,
gross mismanagement, waste of funds, and abuse of authority, based on an
alleged failure to meet contractual requirements related to security; a lack of

2

In an IRA, the Board is limited to reviewing the specific protected disclosures and
personnel actions that the appellant raised before OSC. Willis v. Department of
Agriculture, 141 F.3d 1139, 1144 (Fed. Cir. 1998); Lewis v. Department of the Army, 58
M.S.P.R. 325, 332 (1993).

App. 41

9
deliverables and accountability; a lack of clarity on ownership of results; and
other contract issues. IAF, Tab 39 at 26-31; IAF, Tab 1 (OSC Complaint).
The agency was at the same time moving forward with a decision to modify
the scope of the WMP. In an email dated May 23, 2013, Dr. Hughes explained
that, due to staffing issues related to the Department of Defense’s planned
sequestration and other logistical concerns, DLIFLC had decided not to initiate
further data collection or student involvement with the WMP, and to instead
focus on winding down the project. Dr. Hughes provided a list of objectives,
which included: obtaining a summary report from CASL based on previous year’s
data; obtaining a “how to” manual on word list development; receiving training
instructions for DLIFLC staff so that the project could be replicated in-house; and
gaining access to software, technical specifications, and staff training manuals.
IAF, Tab 59 at 362-363.
From late May 2013 until she was taken off the WMP in August 2013, the
appellant continued to convey her concerns about the project to DLIFLC
management. According to her OSC complaint, the appellant made a total of
seven separate disclosures to her supervisors during this time period. IAF, Tab
39 at 26-31; IAF, Tab 1 (OSC Complaint). These disclosures described, among
other things, a “perilous lack of oversight for the content, accuracy and scientific
merit” of the WMP; “dubious” management practices; waste of government
resources; and the agency’s obstruction of the appellant’s efforts to exercise due
diligence in the management of the WMP. Id.
In July 22, 2013, the appellant elected to elevate her IG complaint by
submitting a request for investigation to the agency’s headquarters level IG. IAF,
Tab 40 at 9. In her request to the agency’s headquarters IG, the appellant alleged
that she had “been put in a situation of entrapment and made to oversee the
management of a potentially fraudulent contract that may be under criminal
investigation[.]”

Id.

As with her previous IG communication, the appellant

alleged that CASL was not being held to any legitimate contract requirements and

App. 42

10
had not provided DLIFLC with any deliverables.

Id.

More specifically, the

appellant wrote that CASL “appears to have been issued essentially a blank check
in the form of a cost-plus-fixed-fee sole-source contract with little or no
requirement, justification, minimal defining criteria for deliverables, and no ...
discernible oversight” and asked the IG to investigate whether the agency’s
contract expenditures were in fact warranted. Id. at 9, 16.
In the meantime, management continued to weigh different disciplinary
options in connection with appellant’s behavior. In late May or early June, 2013,
the agency began to draft a proposed 14-day suspension of the appellant, which
they intended to treat as a “last chance” disciplinary action short of removal.
IAF, Tab 37 at 52. In an email dated June 19, 2013, Dr. Hughes directed the
appellant to stop sending “For Official Use Only” (FOUO) documents to outside
sources, warning her that continuation of the activity could result in disciplinary
action. IAF, Tab 59 at 686. This appears to be a reference to the appellant
copying one of her attorneys on agency communications, as noted above. See,
e.g., id. at 687, 693, 694,
Rather than impose further discipline, however, the agency ultimately
chose not to renew the appellant’s NTE term.

On July 16, 2013, Mr. Bilgin

emailed COL Wallace, and notified her of his intent not to renew the appellant’s
NTE appointment. IAF, Tab 37 at 50. In that same email, Mr. Bilgin requested
that the appellant be placed on administrative leave because of concerns of
possible violent behavior by the appellant. Id.
In an email dated August 8, 2013, Dr. Hughes notified the appellant that he
did not recommend extending her NTE appointment. IAF, Tab 59 at 22. On
August 14, 2013, Dr. Hughes notified the appellant that she was being taken off
the WMP, effective immediately, based on several factors, including her
unwillingness to focus on the contract modifications; her failure to complete a
review of the current deliverables necessary to close out the project; and
complaints from staff regarding her “hostile and harassing communications.”

App. 43

11
IAF, Tab 7 at 518-519. Finally, in a memorandum dated August 27, 2013, Mr.
Bilgin notified the appellant of the agency’s final decision not to extend her NTE
appointment. Id. at 1726. The appellant’s NTE appointment expired on October
28, 2013. Id. at 1713.
On or about November 21, 2013, the appellant initiated an OSC complaint
alleging that her NTE appointment was not extended in retaliation for her
whistleblowing disclosures. IAF, Tab 1. 3 In her OSC complaint, the appellant
identified three separate categories of disclosures: her disclosure on May 22-23,
2013 to DLIFLC’s IG; her disclosure on July 22, 2013 to the agency’s
headquarters IG; and a series of disclosures to DLIFLC management between
May and August 2013. 4 Id. The appellant alleged that the disclosures showed a
violation of law, rule, or regulation; gross mismanagement; a gross waste of
funds; and an abuse of authority.
There is no evidence in the record as to any action taken by OSC in
response to the appellant’s complaint, nor is there any documentation from OSC
terminating appellant’s complaint. On June 6, 2014, the appellant filed an IRA.
IAF, Tab 1. Based on the appellant’s allegations, a hearing was convened via
video-conference to address the merits of the appellant’s claims.

HCD.

A

3

The record lacks any direct evidence of the date, if any, that OSC received the
appellant’s complaint. In support of her appeal, the appellant has submitted an OSC
Complaint form, signed by the appellant’s attorney on the appellant’s behalf and dated
November 21, 2013, as well as a cover letter from the appellant’s attorney to OSC, also
dated November 21, 2013. In submitting these documents, the appellant declared under
penalty of perjury that their content was true. I therefore find that the appellant’s OSC
complaint was filed on or about November 21, 2013.
4

In her OSC complaint, the appellant indicates that she made a disclosure in March
2013 to her chain of command, then clarifies that her first disclosure was made to the
IG in May 2013, and that on March 25, 2013, Dr. Hughes did not grant the appellant’s
request for training after assigning her to WMP, even though the appellant had no
contract management experience at this facility; as noted above, the appellant was
assigned the WMP March 20, 2013. IAF, Tab 33 at 35-36; IAF, Tab 1 at 22, 28.

App. 44

12
prehearing conference was convened on March 10, 2015 and is memorialized in
the record. IAF, Tab 82.
Applicable Law
In order to demonstrate Board jurisdiction in an IRA appeal, the appellant
must show that (1) she has exhausted her administrative remedies before OSC,
and (2) she must make non-frivolous allegations that (a) she made a disclosure
protected under 5 U.S.C. § 2302(b)(8) and that (b) the disclosure was a
contributing factor in the agency's decision to take a personnel action under
5 U.S.C. § 2302(a). Yunus v. Department of Veterans Affairs, 242 F.3d 1367,
1371–72 (Fed. Cir. 2001); Rusin v. Department of the Treasury, 92 M.S.P.R. 298,
304 (2002). 5

Once jurisdiction has been established, the appellant must then

prove the elements of her claim by preponderant evidence.

Spencer v.

Department of the Navy, 327 F.3d 1354, 1356–57 (Fed. Cir. 2003). Thus, an
appellant must show by a preponderance of the evidence that she made a
protected disclosure and that it was a contributing factor in the decision to take a
personnel action. Willis, 141 F.3d 1139, 1143. The agency may still prevail if it
shows by clear and convincing evidence that it would have taken the action in the
absence of any protected disclosures. Rusin, 92 M.S.P.R. at 302.
The Board has jurisdiction over this appeal
To establish that she exhausted her administrative remedies before OSC,
the appellant must prove that she filed a complaint with OSC and then waited
until 120 days passed, or until OSC notified her that it was terminating its
investigation. 5 U.S.C. § 1214(a)(3). The appellant has the burden of showing
that she properly exhausted her remedies before OSC. Coufal v. Department of
Justice, 98 M.S.P.R. 31, ¶ 14 (2004).

5

The expanded definition of protected disclosures in the Whistleblower Protection
Enhancement Act of 2012 (WPEA) applies to this appeal. Day v. Department of
Homeland Security, 119 M.S.P.R. 589 (2013).

App. 45

13
As noted above, the record reflects that the appellant filed her OSC
complaint on November 21, 2013. There is no evidence in the record, nor did the
agency allege, that OSC notified the appellant that an investigation concerning
her complaint had been terminated. The appellant filed her IRA with the Board
on June 6, 2014, more than 120 days after she filed her OSC complaint. The
appellant therefore properly exhausted her administrative remedies.

5 U.S.C.

§ 1214(a)(3)(B).
The appellant non-frivolously alleged that she made a protected disclosure
under 5 U.S.C. § 2302(b)(8). The appellant’s disclosures to her supervisors and
the IG alleged that, inter alia, the WMP – a multi-year project costing the agency
well over $1 million – was being operated without sufficient oversight to ensure
that security clearances and other contract specifications were being satisfied, and
that CASL was receiving funding for a second project phase prior to producing
results from the project’s initial phase.

These disclosures were sufficiently

detailed to satisfy appellant’s burden of making a non-frivolous allegation of a
protected disclosure. See Johnston v. Merit Systems Protection Board, 518 F.3d
905, 910 (Fed. Cir. 2008) (finding that the appellant had made a non-frivolous
allegation of a protected disclosure where her allegations were detailed and
facially well supported.); Yunus, 242 F.3d at 1372 (allegations were facially
sufficient to establish jurisdiction where factual underpinnings of claim were not
frivolous). By doing so, the appellant disclosed matters that a reasonable person
in her position could have believed evidenced a violation of law, rule or
regulation; gross mismanagement; and/or a gross waste of funds, pursuant to
5 U.S.C. § 2302(b)(8). See Garst v. Department of the Army, 60 M.S.P.R. 514,
518 (1994). Any doubt or ambiguity as to whether the appellant has made a nonfrivolous allegation should be resolved in favor of finding jurisdiction. Santos v.
Department of Energy, 102 M.S.P.R. 370, 375 (2006). Thus, I concluded that the
appellant non-frivolously alleged that she made at least one protected disclosure
under 5 U.S.C. § 2302(b)(8).

App. 46

14
The appellant must also non-frivolously allege that one or more of her
protected disclosures was a contributing factor in the agency's decision to take a
personnel action. Here, the agency’s decision not to renew the appellant’s NTE
appointment constituted a personnel action under 5 U.S.C. § 2302(a)(2)(A). See,
e.g., O’Brien v. Office of Independent Counsel, 79 M.S.P.R. 406, 410-11 (1998);
Special Counsel v. Social Security Administration, 76 M.S.P.R. 392, 394 (1997).
Because that personnel action was taken within months after the appellant made
her disclosures, she satisfied the contributing factor criterion based on what is
commonly referred to as the “knowledge-timing” test, under which an employee
submits evidence showing that the official taking the personnel action knew of
the disclosure and that the personnel action occurred within a period of time such
that a reasonable person could conclude that the disclosure was a contributing
factor in the personnel action.

See 5 U.S.C. § 1221(e)(1); Agoranos v.

Department of Justice, 119 M.S.P.R. 498, ¶ 20 (2013). The Board has held that
the knowledge-timing test is generally satisfied if the personnel action occurred
within this time period after the protected disclosure.

See Agoranos, 119

M.S.P.R. at ¶¶ 21-23; Schnell v. Department of the Army, 114 M.S.P.R. 83, ¶ 22
(2010).
Based on the above, I concluded that the appellant exhausted her remedies
before OSC, and that she non-frivolously alleged that she made a protected
disclosure which was a contributing factor in the agency's decision not to renew
her NTE appointment. Thus, the appellant established Board jurisdiction over
this appeal as an IRA.
Once jurisdiction has been established, the appellant must prove by
preponderant evidence that she made a disclosure protected under 5 U.S.C.
§ 2302(b)(8), and that such disclosure was a contributing factor in the personnel
action in question. Holloway v. Department of the Interior, 95 M.S.P.R. 650,
¶ 13 (2004), aff'd, 131 Fed.Appx. 717, 718–19 (Fed. Cir. 2005). In determining
whether the disclosure was protected, the Board must find that a disinterested

App. 47

15
observer with knowledge of the essential facts known to and readily ascertainable
by the employee, could reasonably conclude that the actions evidence one of the
statutory categories of disclosures. 5 U.S.C. § 2302(b).
There is no dispute that the appellant disclosed to her supervisors,
including Dr. Hughes and Mr. Bilgin, her belief that DLIFLC had failed to ensure
that CASL met certain security clearances delineated in the WMP contract. See,
e.g., IAF, Tab 34 at 59-60; IAF, Tab 35 at 33. Specifically, the appellant alleged
that CASL had failed to meet the requirements set forth in Section C-3 of the
WMP’s Performance Work Statement (PWS) addressing security. IAF, Tab 34 at
63.

Section C-3 required CASL to implement procedures to safeguard the

security and confidentiality of all deliverables and government furnished
materials; ensure that CASL employees and subcontractors sign confidentiality
agreements; and that CASL employees entering DLIFLC’s facilities complete
background checks. IAF, Tab 59 at 83-84. These security requirements were
based in part on Army Regulation 611-5. Id. at 84. 6
When the appellant requested documentation from CASL demonstrating
that it had satisfied the WPS security requirements, she was informed that most of
the security requirements she cited were not applicable to the WMP because these
requirements only applied to “testing material” belonging to the government,
while CASL was only producing training material. IAF, Tab 34 at 70-71. This
explanation, however, does not appear to align with the express language set forth
in PWS section C-3, which required CASL to maintain the confidentiality of
information it obtained in the performance of tasks included in the PWS and to
apply security procedures to materials pertaining to the contract. IAF, Tab 59 at
83.

Furthermore, in response to the appellant’s request for evidence that the

CASL personnel going to the DLIFLC facility had the necessary background
checks completed, the appellant was simply told that all CASL staff had to pass
6

See http://armypubs.army.mil/epubs/611_Series_Collection_1.html.

App. 48

16
background checks before reporting to CASL. The record does not contain any
evidence that the appellant ever received documentation that the CASL staff who
were expected to come on base had in fact passed the necessary background
checks.
I find that a disinterested observer, considering the circumstances as a
whole, reasonably could have concluded that DLIFLC violated agency
requirements, related to army regulations addressing security, including the need
to obtain the proper background checks for CASL personnel coming on base, as
well as related safeguards regarding the confidentiality and security of its project
data as set forth above. A disclosure of a violation of an internal agency rule or
regulation can constitute whistleblowing.

See, e.g., Reed v. Department of

Veterans Affairs, 122 M.S.P.R. 165, ¶ 17 (2015).

Because I find that the

appellant reasonably believed that her disclosure evidenced a violation of a
regulation, I need not decide whether it also fell within one of the other protected
categories.
To establish the contributing-factor element by preponderant evidence, the
appellant may rely on the knowledge-timing test discussed above: specifically,
that the officials at issue knew of her protected disclosure and that the personnel
action at issue occurred within a period of time such that a reasonable person
could conclude that the disclosure was a contributing factor in the personnel
action. 5 U.S.C. § 1221(e)(1). The Board has held that the contributing-factor
element is generally is satisfied if the personnel action occurred less than two
years after the protected disclosure. See Agoranos, 119 M.S.P.R. 498, ¶¶ 21-23;
Schnell, 114 M.S.P.R. 83, ¶ 22.
Here, there is no dispute that Dr. Hughes, who recommended against
extending the appellant’s NTE appointment, and Mr. Bilgin, who made the
decision not to extend her NTE appointment, knew about the appellant’s
disclosures as set forth in greater detail above. The recommendation and decision
were both made in August 2013, just weeks after the appellant’s final disclosure

App. 49

17
and only three months after her initial disclosures in May 2013. Accordingly, I
find that the timing of the decision is enough to satisfy the knowledge-timing
test.

Thus, I find that the appellant established as a matter of law that her

disclosure was a contributing factor in the decision to not extend her NTE
appointment when its term lapsed.
The agency would have taken the same personnel action absent the disclosure
Where the appellant has met her burden of proving by preponderant
evidence that she made a protected disclosure that was a contributing factor in the
agency’s personnel action against her, the Board must order corrective action
unless the agency can prove by clear and convincing evidence that it would have
taken the same personnel action absent the disclosure. Holloway, 95 M.S.P.R.
650, ¶ 13. In determining whether the agency met its burden, I must consider all
of the evidence presented, not just the evidence supporting the agency’s
position. Whitmore v. Department of Labor, 680 F.3d 1353, 1368 (Fed. Cir.
2012). Relevant factors include (1) the strength of the agency’s evidence in
support of its action, (2) the existence and strength of any motive to retaliate on
the part of agency officials who were involved in the decision, and (3) any
evidence that the agency takes similar actions against employees who are not
whistleblowers but who are otherwise similarly situated. Ryan v. Department of
the Air Force, 117 M.S.P.R. 362, ¶ 12 (2012). These are not discrete elements,
each of which the agency must prove by clear and convincing evidence, but rather
factors that should be weighed together to determine whether the evidence is
clear and convincing as a whole. McCarthy v. International Boundary & Water
Commission, 116 M.S.P.R. 594, ¶ 44 (2011). As explained below, I find that the
factors on the whole weigh in the agency’s favor and that the agency met its
burden of proof.
In assessing the strength of the evidence, I look at the record as it stood at
the time of the decision not to extend the appellant’s NTE appointment, since the
action must be weighed in view of what the agency officials knew at the time

App. 50

18
they acted. Yunus, 242 F.3d 1367, 1372. As noted earlier, the agency initiated its
discipline of the appellant for behavioral issues well before the date of the first
disclosure as specified by the appellant. Dr. Hughes issued the appellant a NOW
on September 10, 2012, more than eight months prior to the appellant’s first
protected disclosure, identified as “Disclosure No. 1[,]” and long before she was
assigned to work on the WMP. IAF, Tab 7 at 1748-49; IAF, Tab 1 at 28. Dr.
Hughes subsequently issued the appellant a LOR on October 30, 2012 and a
proposed suspension on March 5, 2013, both of which were also issued well
before the appellant made any protected disclosures or was even assigned to the
WMP. (The two-day suspension decision issued by Mr. Bilgin on April 2, 2013
was also issued prior to the appellant’s first protected disclosure). IAF, Tab 7 at
1734, 1740-41, 1745, 1748.

Notably, these disciplinary actions involved

unprofessional and/or inappropriate conduct, including the use of “abusive
language” towards a colleague; “inappropriately confrontational and disrespectful
behavior” that was “creating a disturbance in the workplace[;]” and initiating
multiple emails that were “defiant, unproductive and burdensome to the work
operations.” Id.
While the personnel action at issue here – the agency’s decision not to
extend the appellant’s term appointment – occurred after the appellant had
already made her protected disclosures, I find it significant that both Dr. Hughes
and Mr. Bilgin were actively pursuing efforts to remove the appellant for
behavioral issues in late April 2013, nearly a full month before the appellant
made her first protected disclosure. The record reflects that Dr. Hughes first
began to pursue the appellant’s removal on April 25, 2013, when he emailed
DLIFLC’s human resources staff with a request to initiate the appellant’s
removal, noting that the appellant’s behavior issues, for which she had already
been disciplined, had only accelerated and become more subversive.

Dr.

Hughes’s concerns were soon echoed by others, including Dr. Sottung, who
complained of the appellant’s constant challenging and questioning “of everyone

App. 51

19
and everything,” which he said was adversely impacting the WMP. IAF, Tab 59,
Subtab 5 at 2 of 5.

DLIFLC’s Assistant Commandant COL Ginger Wallace

testified that Mr. Bilgin had discussed his desire to move forward with the
appellant’s removal with her. HCD (Wallace Testimony). COL Wallace testified
that these discussions had been based solely on the appellant’s conduct, and that
Mr. Bilgin never raised any concerns about the appellant’s whistleblowing
activities. Id. COL Wallace testified that, in her opinion, Mr. Bilgin’s actions,
described above, to remove the appellant, were warranted based on the
appellant’s conduct issues. Id. In observing COL Wallace as she testified about
these matters, I found her testimony to be specific, detailed, consistent with
record, and not inherently improbable. Hillen v. Department of the Army, 35
M.S.P.R. 453, 458 (1987). To this latter point, the record is also replete with
emails written by the appellant to colleagues and supervisors which could be
characterized as strident, sarcastic, and confrontational. See, e.g., IAF, Tab 35 at
15, 51, 57; IAF, Tab 36 at 5, 6, 38, 39; IAF, Tab 59 at 567, 573, 581, 591, 605,
647, 659, 680. Thus, I credit her testimony. Hillen, 35 M.S.P.R. at 458.
The negative tenor of these emails only increased over time, despite
admonitions from her supervisors to use a more respectful tone of language
toward her superiors and colleagues. Dr. Kam, who was the appellant’s second
level supervisor at that time, sent the appellant at least three emails between July
and August 2013 asking the appellant to refrain from using inflammatory
language in her communications. IAF, Tab 36 at 12; IAF, Tab 59 at 567, 573.
For example, in a July 17, 2013 email to the appellant, Dr. Kam wrote:
Your communications need to be professional and respectful. Please
take a moment to reflect on the impact your words have on others,
and how best to achieve the goals that you have. Your stated goal is
to receive information but your approach is to make demands and
malign others' character. That is unacceptable and must stop. You are
instructed to not send any additional emails to me on this matter
unless you can be specific, clear, respectful, and professional.

App. 52

20
IAF, Tab 36 at 12. Dr. Kam’s emails appear to have had little or no effect on the
tone and substance of the appellant’s email exchanges with her supervisors and
colleagues.
Dr. Hughes testified that he would have recommended the non-renewal of
the appellant’s NTE appointment regardless of the substance of her disclosures,
and that his recommendation was solely based on the appellant’s behavioral
issues, which he noted had started long before her whistleblowing activities.
HCD (Hughes Testimony).

Dr. Hughes testified that he did not consider the

appellant’s efforts to ensure that CASL complied with the WMP contract
requirements inappropriate in and of itself. Id. Rather, he indicated that it was
the way in which the appellant conducted herself that made her behavior so
disruptive. Id. In his testimony, Dr. Hughes cited the appellant’s disrespectful
and unprofessional conduct toward Dr. Kam; her inclusion of outside sources on
FOUO emails; complaints he had been receiving from CASL regarding the
appellant’s behavior; and issues regarding the appellant’s potential use of
violence as reasons for his recommendation not to extend her NTE appointment.
Id. In observing Dr. Hughes testify about these matters, I found his testimony to
be specific and detailed. Further, as set forth above, his testimony is consistent
with the written record, and not inherently improbable. Hillen, 35 M.S.P.R. at
458. Thus, I find his testimony credible.
As both the Federal Circuit and this Board have long held, whistleblowing
does not shield an employee from discipline for wrongful or disruptive conduct.
Marano v. Department of Justice, 2 F.3d at 1142, n.5 (Fed. Cir. 1993); Russell v.
Department of Justice, 76 M.S.P.R. 317, 325 (1997). The record reflects that
both before and during her whistleblowing activity, the appellant engaged in
repeated disruptive and inappropriate conduct, and that this misconduct continued
to escalate despite prior discipline and multiple warnings from her supervisors to
alter her behavior as set forth above in greater detail.

Thus, based on the

information the agency had at the time, I find that there is ample justification for

App. 53

21
its decision not to extend the appellant’s NTE appointment. I note that I am not
adjudicating the merits of a removal, but I find that the strength-of-the-evidence
factors weighs strongly in the agency’s favor.
I find that the agency officials had at most a moderate motive to retaliate
against the appellant for her protected disclosures. By all accounts, the WMP
was not a successful project. HCD (testimony of Dr. Hughes and Provost Betty
Leaver). Dr. Leaver testified that when she was first appointed as Provost in
January 2013, she conducted an evaluation of all of the DLIFLC-CASL projects,
including the WMP, and concluded that they were not cost effective, and that the
agency would be better served bringing the projects “in-house.”

HCD.

She

further testified that she believed that the WMP was indeed wasteful to the extent
that it “duplicated what [DLI] can do.” Id. Dr. Leaver also testified that this was
“broad knowledge [within DLIFLC] for some time” and that the appellant’s
allegations were “not new information” to the agency. Id.
In her testimony, Dr. Leaver noted that the agency began having
discussions about winding down the WMP and other CASL projects as early as
late January 2013, when the agency began to prepare for sequestration and the
loss of approximately $49 million in funding. Id. For these reasons, as well as
others, including issues with respect to the WMP taking too much of the language
students’ time away from actual classroom learning, she and other senior DLIFLC
officials made the decision to begin to wind down the project. Id. The close out
of the WMP and other CASL projects, Dr. Leaver stated in her testimony, had
nothing to do with the appellant’s whistleblowing but was simply a “budgeting
issue and an effectiveness issue.” Id. In observing Dr. Leaver as she testified
about these matters, I found her testimony to be specific, detailed, consistent with
record, and not inherently improbable. Hillen, 35 M.S.P.R. at 458. Dr. Hughes
testified similarly, stating that the decision to wind down the WMP was largely
due to sequestration, and that the agency was no longer able to continue these

App. 54

22
multi-year contracts with CASL. HCD. Following a careful review of the record
inclusive of my observations, I find Dr. Leaver’s testimony credible.
The record also reflects that, by the time the appellant made her first
whistleblowing disclosure, Dr. Hughes had already begun to actively wind down
the WMP, and had initiated procedures for modifying the WMP to ensure that the
agency obtained the data it needed from CASL to continue the project in-house.
Specifically, in a May 23, 2013 email to the WMP team members, Dr. Hughes
explained that – due to staffing issues related to the agency’s planned
sequestration and other logistical concerns – DLIFLC had decided not to initiate
further data collection or student involvement with the WMP, and he presented a
list of objectives for winding down the project. IAF, Tab 59 at 362-363. The
timing of this email supports the testimony of Drs. Hughes and Leaver that the
decision to wind down the project had already been made prior to the appellant’s
specified disclosures.
In addition, I found no evidence in the record that the agency tried to
undermine the appellant’s whistleblowing activities. When the appellant notified
Dr. Hughes of her intent to “request a formal security and contract review [of the
WMP] by an independent party,” Dr. Hughes responded that if the appellant “felt
there is some impropriety regarding [the WMP] project, you have the right to
request a review.” IAF, Tab 35 at 34-35. Dr. Hughes testified that he told the
appellant to “go for it” when she threatened to go to the IG with her concerns
regarding the WMP, and further testified that he believed the appellant had every
right to go to the IG with any allegations of contract impropriety. HCD. In
observing Dr. Hughes testify about these matters, I found his testimony to be
specific, detailed, and not inherently improbable. As noted above, his testimony
was consistent with the written record, and that of Dr. Leaver.

Hawkins v.

Smithsonian Institution, 73 M.S.P.R. 397, 403-04 (1997).
While the appellant alleges that the agency was obstructing her efforts to
obtain necessary contract documentation, I find nothing in the record to suggest

App. 55

23
that any failure on the agency’s part to provide the appellant with WMP
documentation was based on an intent to hide any agency wrongdoing. Rather,
the record reflects that there was simply a great deal of confusion among
DLIFLC, CASL, and NSA staff as to what documentation the appellant was
seeking, and who might have that information. See, e.g., IAF, Tab 7 at 491; IAF,
Tab 33 at 66; IAF, Tab 34 at 44-45; IAF, Tab 35 at 57; IAF, Tab 36 at 5; IAF,
Tab 59 at 680. The record also reflects that the agency made multiple efforts to
comply with the appellant’s requests for information, but that the appellant
remained dissatisfied with these efforts. See, e.g., IAF, Tab 7 at 680; IAF, Tab
35 at 54; IAF, Tab 36 at 5 and 12; IAF, Tab 59, Subtab 4. The only time that the
appellant was expressly told to stop engaging in communications regarding the
WMP was when she was officially taken off the project by Dr. Hughes. IAF, Tab
7 at 445-446.
Moreover, the appellant fails to adequately explain what motive any of the
officials had to retaliate against the appellant for her whistleblowing. While the
appellant had alleged that the WMP was under “criminal investigation,” she
herself recognized that the investigation was focused on a former DLIFLC
official who had gone to work for CASL, rather than on the contract itself. IAF,
Tab 40 at 9. There is no evidence in the record that the WMP or other CASL
projects were themselves under criminal investigation. Furthermore, COL
Wallace testified that the criminal investigation was in fact solely focused on a
former DLIFLC employee, not the contract itself. HCD.

Hawkins, 73 M.S.P.R.

at 403-04.
During her testimony, the appellant repeated much of what was already
contained in the record regarding her belief that the WMP was grossly
mismanaged and a waste of government resources “on a grand scale.”

HCD.

While I have no reason to doubt that the appellant, among others, believed that
the WMP was a wasteful and poorly managed project, she failed to adequately
show that the agency’s decision not to extend her NTE appointment was done in

App. 56

24
retaliation for her whistleblowing activities.

Even assuming there was some

motive for the agency to retaliate against the appellant for her whistleblowing
activities, I find that this motive was at most moderate. Thus, on the whole, I
find that the motive-to-retaliate factor weighs in favor of the agency. Further,
there is nothing in the record to suggest that similarly situated nonwhistleblowers are more favorably treated. See Sutton v. Department of Justice,
94 M.S.P.R. 4, 14 (2003). Considering the factors as a whole, I am left with a
firm belief that the agency would have decided not to renew the appellant’s term
appointment regardless of whether she had made any protected disclosures as set
forth above. Given the strength of the agency's evidence in support of its action,
the absence of sufficient motive to retaliate against the appellant, and the absence
of any evidence that non-whistleblowers are treated more favorably, I find that
the agency established by clear and convincing evidence that it would still have
decided not to renew the appellant’s term appointment absent her whistleblowing
disclosures.
DECISION
The appellant’s request for corrective action is DENIED.

FOR THE BOARD:

______________________________
Franklin M. Kang
Administrative Judge
NOTICE TO APPELLANT

This initial decision will become final on April 25, 2016, unless a petition
for review is filed by that date. This is an important date because it is usually the
last day on which you can file a petition for review with the Board. However, if
you prove that you received this initial decision more than 5 days after the date of
issuance, you may file a petition for review within 30 days after the date you
actually receive the initial decision. If you are represented, the 30-day period

App. 57

25
begins to run upon either your receipt of the initial decision or its receipt by your
representative, whichever comes first. You must establish the date on which you
or your representative received it. The date on which the initial decision becomes
final also controls when you can file a petition for review with the Court of
Appeals.

The paragraphs that follow tell you how and when to file with the

Board or the federal court. These instructions are important because if you wish
to file a petition, you must file it within the proper time period.
BOARD REVIEW
You may request Board review of this initial decision by filing a petition
for review.
If the other party has already filed a timely petition for review, you may
file a cross petition for review. Your petition or cross petition for review must
state your objections to the initial decision, supported by references to applicable
laws, regulations, and the record. You must file it with:
The Clerk of the Board
Merit Systems Protection Board
1615 M Street, NW.
Washington, DC 20419
A petition or cross petition for review may be filed by mail, facsimile (fax),
personal or commercial delivery, or electronic filing. A petition submitted by
electronic filing must comply with the requirements of 5 C.F.R. § 1201.14, and
may

only

be

accomplished

at

the

Board's

e-Appeal

website

(https://e-appeal.mspb.gov).
Criteria for Granting a Petition or Cross Petition for Review
Pursuant to 5 C.F.R. § 1201.115, the Board normally will consider only
issues raised in a timely filed petition or cross petition for review. Situations in
which the Board may grant a petition or cross petition for review include, but are
not limited to, a showing that:

App. 58

26
(a) The initial decision contains erroneous findings of material fact. (1)
Any alleged factual error must be material, meaning of sufficient weight to
warrant an outcome different from that of the initial decision. (2) A petitioner
who alleges that the judge made erroneous findings of material fact must explain
why the challenged factual determination is incorrect and identify specific
evidence in the record that demonstrates the error. In reviewing a claim of an
erroneous finding of fact, the Board will give deference to an administrative
judge’s credibility determinations when they are based, explicitly or implicitly,
on the observation of the demeanor of witnesses testifying at a hearing.
(b) The initial decision is based on an erroneous interpretation of statute or
regulation or the erroneous application of the law to the facts of the case. The
petitioner must explain how the error affected the outcome of the case.
(c) The judge’s rulings during either the course of the appeal or the initial
decision were not consistent with required procedures or involved an abuse of
discretion, and the resulting error affected the outcome of the case.
(d) New and material evidence or legal argument is available that, despite
the petitioner’s due diligence, was not available when the record closed. To
constitute new evidence, the information contained in the documents, not just the
documents themselves, must have been unavailable despite due diligence when
the record closed.
As stated in 5 C.F.R. § 1201.114(h), a petition for review, a cross petition
for review, or a response to a petition for review, whether computer generated,
typed, or handwritten, is limited to 30 pages or 7500 words, whichever is less. A
reply to a response to a petition for review is limited to 15 pages or 3750 words,
whichever is less. Computer generated and typed pleadings must use no less than
12 point typeface and 1-inch margins and must be double spaced and only use one
side of a page. The length limitation is exclusive of any table of contents, table of
authorities, attachments, and certificate of service. A request for leave to file a
pleading that exceeds the limitations prescribed in this paragraph must be

App. 59

27
received by the Clerk of the Board at least 3 days before the filing deadline. Such
requests must give the reasons for a waiver as well as the desired length of the
pleading and are granted only in exceptional circumstances. The page and word
limits set forth above are maximum limits. Parties are not expected or required to
submit pleadings of the maximum length. Typically, a well-written petition for
review is between 5 and 10 pages long.
If you file a petition or cross petition for review, the Board will obtain the
record in your case from the administrative judge and you should not submit
anything to the Board that is already part of the record. A petition for review
must be filed with the Clerk of the Board no later than the date this initial
decision becomes final, or if this initial decision is received by you or your
representative more than 5 days after the date of issuance, 30 days after the date
you or your representative actually received the initial decision, whichever was
first. If you claim that you and your representative both received this decision
more than 5 days after its issuance, you have the burden to prove to the Board the
earlier date of receipt. You must also show that any delay in receiving the initial
decision was not due to the deliberate evasion of receipt. You may meet your
burden by filing evidence and argument, sworn or under penalty of perjury (see 5
C.F.R. Part 1201, Appendix 4) to support your claim. The date of filing by mail
is determined by the postmark date. The date of filing by fax or by electronic
filing is the date of submission. The date of filing by personal delivery is the
date on which the Board receives the document. The date of filing by commercial
delivery is the date the document was delivered to the commercial delivery
service. Your petition may be rejected and returned to you if you fail to provide
a statement of how you served your petition on the other party. See 5 C.F.R.
§ 1201.4(j). If the petition is filed electronically, the online process itself will
serve the petition on other e-filers. See 5 C.F.R. § 1201.14(j)(1).
A cross petition for review must be filed within 25 days after the date of
service of the petition for review.

App. 60

28
NOTICE TO AGENCY/INTERVENOR
The agency or intervenor may file a petition for review of this initial
decision in accordance with the Board's regulations.
NOTICE TO THE APPELLANT REGARDING
YOUR FURTHER REVIEW RIGHTS
You have the right to request review of this final decision by the United
States Court of Appeals for the Federal Circuit.
The court must receive your request for review no later than 60 calendar
days after the date this initial decision becomes final.
§ 7703(b)(1)(A) (as rev. eff. Dec. 27, 2012).

See 5 U.S.C.

If you choose to file, be very

careful to file on time. The court has held that normally it does not have the
authority to waive this statutory deadline and that filings that do not comply with
the deadline must be dismissed. See Pinat v. Office of Personnel Management,
931 F.2d 1544 (Fed. Cir. 1991).
If you want to request review of this decision concerning your claims of
prohibited personnel practices under 5 U.S.C. § 2302(b)(8), (b)(9)(A)(i),
(b)(9)(B), (b)(9)(C), or (b)(9)(D), but you do not want to challenge the Board’s
disposition of any other claims of prohibited personnel practices, you may request
review of this decision only after it becomes final by filing in the United States
Court of Appeals for the Federal Circuit or any court of appeals of competent
jurisdiction. The court of appeals must receive your petition for review within 60
days after the date on which this decision becomes final.

See 5 U.S.C.

§ 7703(b)(1)(B) (as rev. eff. Dec. 27, 2012). If you choose to file, be very careful
to file on time. You may choose to request review of the Board’s decision in the
United States Court of Appeals for the Federal Circuit or any other court of
appeals of competent jurisdiction, but not both. Once you choose to seek review
in one court of appeals, you may be precluded from seeking review in any other
court.

App. 61

29
If you need further information about your right to appeal this decision to
court, you should refer to the federal law that gives you this right. It is found in
Title 5 of the United States Code, section 7703 (5 U.S.C. § 7703) (as rev. eff.
Dec. 27, 2012). You may read this law as well as other sections of the United
States

Code,

at

our

website,

http://www.mspb.gov/appeals/uscode/htm.

Additional information about the United States Court of Appeals for the Federal
Circuit is available at the court's website, www.cafc.uscourts.gov. Of particular
relevance is the court's "Guide for Pro Se Petitioners and Appellants," which is
contained within the court's Rules of Practice, and Forms 5, 6, and 11.
Additional information about other courts of appeals can be found at their
respective

websites,

which

can

be

accessed

through

http://www.uscourts.gov/Court_Locator/CourtWebsites.aspx.
If you are interested in securing pro bono representation for your court
appeal, that is, representation at no cost to you, the Federal Circuit Bar
Association may be able to assist you in finding an attorney. To find out more,
please click on this link or paste it into the address bar on your browser:
https://fedcirbar.org/Pro-Bono-Scholarships/Government-Employees-ProBono/Overview-FAQ
The Merit Systems Protection Board neither endorses the services provided
by any attorney nor warrants that any attorney will accept representation in a
given case.

App. 62

UNITED STATES OF AMERICA
MERIT SYSTEMS PROTECTION BOARD
KATHRYN A. FLYNN,
Appellant,

DOCKET NUMBER
SF-1221-14-0620-W-1

v.
DEPARTMENT OF THE ARMY,
Agency.

DATE: January 6, 2017

THIS FINAL ORDER IS NONPRECEDENTIAL 1
Kathryn A. Flynn, Claremont, California, pro se.
Michael L. Halperin, Esquire, Monterey, California, for the agency.
BEFORE
Susan Tsui Grundmann, Chairman
Mark A. Robbins, Member
FINAL ORDER
¶1

The appellant has filed a petition for review of the initial decision, which
denied her request for corrective action in this individual right of action (IRA)
appeal. Generally, we grant petitions such as this one only when: the initial
decision contains erroneous findings of material fact; the initial decision is based
on an erroneous interpretation of statute or regulation or the erroneous application
1

A nonprecedential order is one that the Board has determined does not add
significantly to the body of MSPB case law. Parties may cite nonprecedential orders,
but such orders have no precedential value; the Board and administrative judges are not
required to follow or distinguish them in any future decisions. In contrast, a
precedential decision issued as an Opinion and Order has been identified by the Board
as significantly contributing to the Board’s case law. See 5 C.F.R. § 1201.117(c).

App. 63

2
of the law to the facts of the case; the administrative judge’s rulings during either
the course of the appeal or the initial decision were not consistent with required
procedures or involved an abuse of discretion, and the resulting error affected the
outcome of the case; or new and material evidence or legal argument is available
that, despite the petitioner’s due diligence, was not available when the record
closed. Title 5 of the Code of Federal Regulations, section 1201.115 ( 5 C.F.R.
§ 1201.115). After fully considering the filings in this appeal, we conclude that
the petitioner has not established any basis under section 1201.115 for granting
the petition for review.

Therefore, we DENY the petition for review and

AFFIRM the initial decision, which is now the Board’s final decision. 5 C.F.R.
§ 1201.113(b).
¶2

On October 29, 2007, the agency effected an “Excepted Appointment NTE
[Not to Exceed] 29-OCT-2009” of the appellant to an Associate Professor
position at the agency’s Defense Language Institute and Foreign Language Center
(DLIFLC).

Initial Appeal File (IAF), Tab 7, Subtab D at 6-8.

The agency

extended the appointment several times for shorter NTE periods between
October 2009

and

October

2011,

with

a

final

extension

issued

on

October 27, 2011, for a 2-year period ending on October 28, 2013. Id. at 1-5.
On October 28, 2013, the agency effected the appellant’s termination upon the
expiration of her NTE appointment. IAF, Tab 7, Subtabs C, E.
¶3

On appeal to the Board, the appellant alleged that the agency decided not to
extend her appointment based on reprisal for whistleblowing. IAF, Tab 1 at 5. In
particular, the appellant asserted that she disclosed to her supervisors and the
Inspector General (IG) a gross waste of funds relating to a Government contract.
IAF, Tab 33 at 10-19. The agency, by contrast, asserted that it became clear over
time that the appellant’s conduct and performance was not up to the agency’s
standards, not meeting management’s expectations, and impacting the agency’s
mission. IAF, Tab 7 at 2, 4. The agency noted that it had issued the appellant a
September 2012 letter of warning for using abusive language and an

App. 64

3
October 2012 letter of reprimand for repeatedly demonstrating unprofessional
behavior by being insubordinate and discourteous and creat ing a disturbance in
the workplace. Id. at 5. The agency also asserted that it had given the appellant a
“Fair” rating on her October 1, 2011, through September 30, 2012 performance
evaluation, including a “Needs Improvement” rating in the area of Interpersonal
Relationships, and imposed a 2-day suspension in April 2013, for failure to
follow instructions, defiance, and causing undue workplace disruption. Id. at 6.
¶4

After a hearing, the administrative judge denied the appellant’s request for
corrective action. IAF, Tab 94, Initial Decision (ID) at 2, 24. The administrative
judge found that the appellant exhausted her remedy with the Office of Special
Counsel and reasonably believed that she made protected disclosures to her
supervisors and the agency’s IG that a multi-year project costing over $1 million
was being operated by a contractor in violation of an agency regulation and
without sufficient oversight to ensure that security clearances and other
contractual specifications were being satisfied. ID at 13-16. The administrative
judge also found that the disclosures were a contributing factor in the decision not
to extend her appointment. ID at 16-17.

¶5

Nevertheless, the administrative judge held that the agency proved by clear
and convincing evidence that it would have taken the same personnel action
absent the disclosures. ID at 17. The administrative judge noted that the agency
had initiated disciplinary actions against the appellant, including a notice of
warning, a letter of reprimand, and a 2-day suspension for behavioral issues, well
before the date of her first protected disclosure. ID at 18. He found that these
disciplinary actions were based on charges of unprofessional and/or inappropriate
conduct,

including

the

use

of

abusive

language

toward

a

colleague,

inappropriately confrontational and disrespectful behavior that created a
disturbance in the workplace, and initiating multiple emails that were defiant,
unproductive, and burdensome to work operations. Id. The administrative judge
also found it significant that the recommending and acting officials were pursuing

App. 65

4
efforts to remove the appellant for behavioral issues nearly 1 month before she
made her first protected disclosure, and that an assistant commandant credibly
testified that the acting official raised his concerns with her about the appellant’s
behavior but not her whistleblowing activities. ID at 18-19. The administrative
judge noted that the record was replete with emails sent by the appellant that
could be characterized as becoming more strident, sarcastic, and confrontational
over time, even though her supervisors had instructed her on several occasions to
use a more respectful tone. ID at 19. Thus, the administrative judge held that the
agency had a strong justification for its decision not to extend the appellant’s
NTE appointment. ID at 19-21. Moreover, the administrative judge found that
the agency officials had, at most, a moderate motive to retali ate against the
appellant because the project about which she made her disclosures was broadly
known by the agency to not be successful or cost effective and already in the
process of being “w[ound] down” and moved in-house by the time the appellant
made her first disclosure. ID at 21-22. The administrative judge noted that there
was

no

evidence

that

the

agency

tried

to

undermine

the

appellant’s

whistleblowing activities; in fact, the appellant’s supervisor had encouraged her
to report her concerns to the IG. ID at 22. Finally, the administrative judge
found

that

there

was

no

evidence

suggesting

that

similarly

situated

nonwhistleblowers were treated more favorably. ID at 24.
¶6

The appellant asserts on review that the administrative judge incorrectly
credited her with having only 6 years of Federal service instead of nearly 16 years
of service, and that this increased length of service showed that the agency’s
allegations of insubordination and disrespect were “highly suspect.” Petition for

App. 66

5
Review (PFR) File, Tab 1 at 5. 2 She also contends that several agency officials
wrote notes of excellence regarding her work in 2011 and otherwise praised her
work in 2012, describing her as a valued employee and highly recommending her
for promotion. Id. at 5-6. The appellant asserts that the agency’s actions toward
her changed after she filed an equal employment opportunity (EEO) complaint
based on alleged sexual harassment during an altercation at her cubicle with a
coworker in September 2012. Id. at 6-7.
¶7

The administrative judge did not find that the appellant had only 6 total
years of Federal service, nor did he consider the appellant’s length of service in
finding that the agency proved by clear and convincing evidence that it would
have taken the same action in the absence of her disclosures.

ID at 17-24.

Instead, the administrative judge simply noted that, as of the appellant’s initial
NTE appointment on October 29, 2007, her Standard Form 50 indicated that her
service computation date was October 29, 2007. ID at 2; see IAF, Tab 7 at 1721.
Thus, the appellant’s argument regarding her length of service demonstrates no
error in the initial decision. Further, the administrative judge correctly held that,
in determining whether the agency met its burden, the Board must consider all of
the evidence presented, not just the evidence supporting the ag ency’s position.
ID

at

17;

see

Whitmore

1368 (Fed. Cir. 2012).

v.

Department

of

Labor,

680

F.3d

1353,

Consistent with Whitmore, the administrative judge

2

The appellant submitted an “updated” petition for review after submitting her original
petition for review. PFR File, Tab 2. This document includes a summary and changes
to some of the headings and paragraph endings of the original petition for review, as
well as additional phrases and sentences. Id. at 32. Compare, e.g., PFR File, Tab 1 at
5, with PFR File, Tab 2 at 5-6. It does not, however, substantially differ in substance
from the original petition for review.
The appellant also filed a supplement to her reply to the agency’s response to her
petition for review. PFR File, Tab 7. Pleadings allowed on review include a petition
for review, a cross petition for review, a response to a petition for review, a respon se to
a cross petition for review, and a reply to a response to a petition for review. 5 C.F.R.
§ 1201.114(a). The appellant did not file a motion for leave to submit this pleading.
See 5 C.F.R. § 1201.114(a)(5). Thus, we have not considered the supplemental reply.

App. 67

6
correctly considered the fact that, for most of her time at the DLIFLC, the
appellant had an exemplary work record and regularly received outstanding
performance reviews. ID at 3. To the extent that the appellant asserts that the
agency’s failure to extend her appointment was based on reprisal for filing an
EEO complaint, such a claim of a violation under 5 U.S.C. § 2302(b)(9)(A)(ii)
does not provide a basis for Board review in an IRA appeal. 5 U.S.C. § 1221(a);
see Mudd v. Department of Veterans Affairs, 120 M.S.P.R. 365, ¶ 7 (2013).
¶8

The appellant also contends that the administrative judge misapplied the
factors set forth in Carr v. Social Security Administration, 185 F.3d 1318,
1323 (Fed. Cir. 1999), for determining whether the agency showed by clear and
convincing evidence that it would have taken the same personnel action in the
absence of her whistleblowing. PFR File, Tab 1 at 7. The appellant asserts that
her communications were direct, consistent, and detailed and did not evidence
disrespect, obstruction, and insubordination.

Id.

She also contends that the

emails the agency cited as reasons for terminating her employment transmitt ed
information on contract violations, a lack of deliverables already purchased, or
security and contract violations, or requested specific information relating to
contract line items required in the Work Performance Statement . Id. at 8. The
appellant contends that her supervisors repeatedl y asserted that they did not know
what information was required, even though they were running the contracts. Id.
¶9

We agree, however, with the administrative judge’s analysis of the Carr
factors.

See ID at 17-24.

Although the appellant asserts that the emails in

question were direct, consistent, and detailed, the administrative judge correctly
found that they also could be characterized as “strident, sarcastic, and
confrontational,” and that the negative tenor of the appellant’s emails increased
over time despite instructions from her supervisors to use a more respectful tone.
ID at 19-20; see, e.g., IAF, Tab 35 at 15-16, 57, Tab 36 at 5-6, 12, 37-39, 59
at 567-69, 573-74, 581, 605-06, 659, 680-81. Many emails and behavior that may
be characterized in a similar fashion predated the appellant’s first protected

App. 68

7
disclosure, which occurred in late May 2013. See, e.g., IAF, Tab 7, Report of
Investigation at 160-61, 166, 171-72, 178-79, 183-84, 210-11, 213-14, 218-19,
Tab 33 at 33-34, 39-40, Tab 34 at 79-80; ID at 8-9. The appellant has not shown
that any lack of knowledge on the part of her supervisors as to what information
was required regarding the contract justified the tone set forth in her emails.
Moreover, as both the U.S. Court of Appeals for the Federal Circuit and the
Board have held, whistleblowing activity does not shield an employee from
discipline for wrongful or disruptive conduct. Marano v. Department of Justice,
2 F.3d 1137, 1142 n.5 (Fed. Cir. 1993); Russell v. Department of Justice,
76 M.S.P.R. 317, 325 (1997); ID at 20.
¶10

In addition, the administrative judge found credible the testimony of the
appellant’s supervisor that he recommended the nonrenewal of her appointment
because of the way in which she conducted herself, not because of her efforts to
ensure compliance with the contract requirements; this credibility determination
was based in part on the administrative judge’s observations of the supervisor’s
demeanor. ID at 20, 22; see Haebe v. Department of Justice, 288 F.3d 1288, 1301
(Fed. Cir. 2002) (finding that, the Board must defer to an administrative judge’s
credibility determinations when they are based, explicitly or implicitly, on
observing the demeanor of witnesses testifying at a hearing; the Board may
overturn such determinations only when it has “sufficiently sound” reasons for
doing so).

The appellant has not established a basis for overturning this

credibility determination.

As further found by the administrative judge, the

agency disciplined the appellant long before she made her first protected
disclosure, and the appellant’s supervisors were pursuing efforts to remove her
approximately 1 month before she made her first protected disclosure.
18-19; see IAF, Tab 37 at 5.

ID at

Under these circumstances, we find that the

appellant has shown no error in the administrative judge’s finding that the agency
presented strong evidence supporting its determination not to extend her
appointment. ID at 20-21; see Rumsey v. Department of Justice, 120 M.S.P.R.

App. 69

8
259, ¶¶ 44-48 (2013) (finding the agency’s documented concerns regarding the
appellant’s performance well before she made her protected disclosures
strengthened the agency’s evidence in support of its action) .
¶11

The appellant also contends that the agency’s rationale for the no nrenewal
of her contract was a pretext for whistleblower reprisal because her supervisor
indicated during an EEO investigation that he did not renew her appointment
because her project ended and the mission changed, yet there was no reduction in
work requirements and this reason differed from the reasons given by the
supervisor during his testimony before the Board. PFR File, Tab 1 at 21-22.

¶12

The appellant’s supervisor indicated during an EEO investigation that he
recommended to the acting official that the appellant’s term appointment not be
extended because the organization no longer needed her services under the
“business rule,” and that she was assigned to a project that she did not complete.
IAF, Tab 7 at 24, Report of Investigation at 1187-88.

The acting official,

however, indicated that he did not renew the appointment based on the
supervisor’s recommendation, and that the supervisor suggested that the
appointment should not be renewed “because of [the appellant’s] failure to meet
expectations as evidenced by her disciplinary record, refusal to perform work and
poor interpersonal relations.” Id. at 24, Report of Investigation at 1519, 1522.
We find that the above descriptions regarding the reason the appellant’s
supervisor recommended that her appointment not be renewed are not necessarily
inconsistent with each other, and are consistent with the administrative judge’s
finding that the supervisor testified at the hearing that his recommendation was
based on the appellant’s behavioral issues. ID at 20. Thus, we discern no reason
to disturb the administrative judge’s finding that the supervisor was credible.
¶13

The appellant further contends that the administrative judge improperly
denied her the opportunity to conduct depositions and other discovery and to call
certain witnesses, including her second- and third-level supervisors and IG
employees. PFR File, Tab 1 at 22. She also asserts that the administrative judge

App. 70

9
should have recused himself after her representative asserted that he had engaged
in erratic, irrational, and biased conduct. Id. In addition, the appellant contends
that the administrative judge refused to hold the hearing in a more neutral
location, did not permit her to refer to notes or use a power point projector, asked
her how much longer her testimony would continue, and permitted an agency
witness to testify first. PFR File, Tab 1 at 23.
¶14

An administrative judge has broad discretion in ruling on discovery matters,
and absent an abuse of discretion the Board will not find reversible error in such
rulings. Kingsley v. U.S. Postal Service, 123 M.S.P.R. 365, ¶ 16 (2016). Here,
the administrative judge denied the appellant’s motion to compel depositions
because she did not provide timely notice of the individuals she sought to depose
along with the specific time and place of such depositions. IAF, Tab 50 at 2-3.
The appellant has shown no abuse of discretion by the administrative judge in this
regard. See 5 C.F.R. § 1201.73(a) (requiring requests for discovery to specify the
time and place of the taking of depositions). Moreover, an administrative judge
has wide discretion to control the proceedings, including the authority to exclude
testimony he believes would be irrelevant, immaterial, or unduly repetitious.
Parker v. Department of Veterans Affairs, 122 M.S.P.R. 353, ¶ 21 (2015). The
appellant has not shown the administrative judge abused his discretion in denying
her request for certain witnesses or in otherwise controlling the hearing-related
proceedings, particularly given that the appellant’s request for witnesses was
untimely filed.

IAF, Tab 82 at 2-3; 5 C.F.R. § 1201.43(c).

In fact, the

administrative judge provided an alternative basis for denying the requested
witnesses based on the appellant’s proffers as to their testimony and approved
several witnesses requested by the appellant, even though her request was
untimely filed.

IAF, Tab 82 at 3.

Although the appellant contends that the

administrative judge was biased against her, she has not shown that any
comments or actions by the administrative judge evidenced a deep-seated

App. 71

10
favoritism or antagonism that would make fair judgment impossible. See Bieber
v. Department of the Army, 287 F.3d 1358, 1362-63 (Fed. Cir. 2002).
¶15

The appellant also asserts that the agency had more than a “moderate”
reason for retaliation, as found by the administrative judge, because senior
leaders and her supervisors were personally responsible for committing money to
the contracts and misappropriation of funding, one such individual acknowledged
a friendship with the contractor’s personnel, her supervisor wrote a contract
modification that “dismiss[ed]” most substantive requirements, the contract was
under criminal investigation and the supervisors were interviewed by the
investigators, and the agency created a hostile work environment by excluding her
from meetings, telephone calls and teleconferences, isolating her, denying her
training, ignoring her requests for an end to the hostile environment, refusing to
transfer her to a different division, and requiring her to spend a specific number
of hours on each of her projects.

PFR File, Tab 1 at 23-25.

The appellant

contends that the hostile work environment caused her to communicate more
directly and assertively and challenge what she believed were fraudulent and
abusive management practices regarding the contract. Id. at 25. The appellant
also notes that the agency had a motive to retaliate because the contract involved
the National Security Agency (NSA), which was under public scrutiny in
connection with the Edward Snowden release of classified information, and one
agency manager specifically noted with respect to the appellant’s communications
that there was a need to avoid public scrutiny of the NSA. Id. at 26.
¶16

We agree with the administrative judge that agency officials had at most a
moderate motive to retaliate against the appellant for her protected disclosures.
ID at 21. The administrative judge noted that the agency had de cided months
before the appellant’s first disclosure that the project upon which she based her
disclosures was neither successful nor cost effective and would be closed out
based on budgeting and effectiveness issues.

ID at 21-22.

Moreover, as the

administrative judge found, the appellant’s supervisor did not undermine her

App. 72

11
whistleblowing activities, but instead informed her that it was her right to request
a formal security and contract review by an independent party if she believed
there was some impropriety regarding the project.

ID at 22; IAF, Tab 35 at

34-35. The administrative judge also found that there was no apparent motive for
agency officials to retaliate against the appellant, and that any criminal
investigation relating to the contract was focused on a former DLIFLC official
who had left the agency to work for the contractor, not on the project or contract
itself or the recommending or acting officials in this case.

ID at 23.

The

administrative judge concluded that, even assuming that there was s ome motive
for the agency to retaliate against the appellant for her whistleblowing activities,
the motive was at most moderate and the motive-to-retaliate factor weighed in
favor of the agency.

ID at 24.

We find that the allegations set forth by the

appellant on review, even if true, do not establish that the agency had more than a
moderate motive to retaliate.
¶17

Finally, the administrative judge found that there was nothing in the record
to suggest that similarly situated nonwhistleblowers were treated mo re favorably
than the appellant. ID at 24. Even if the absence of such evidence could be
found to “cut slightly against the Government,” see Miller v. Department of
Justice, No. 2015-3149, 2016 WL 7030359, at *8 (Fed. Cir. Dec. 2, 2016), we are
nevertheless left with the firm belief that the agency would have taken the same
action in the absence of the appellant’s protected disclosures based on the
strength of the evidence in support of its action, including the evidence showing
that the agency had taken steps to separate the appellant from employment before
she made her first disclosure, and the absence of a sufficient motive to retaliate
against her, see Mithen v. Department of Veterans Affairs, 122 M.S.P.R. 489, ¶ 36
(2015) (holding that the Board does not view the Carr factors as discrete
elements, each of which the agency must prove by clear and convincing evidence;
rather, the Board will weigh the factors together to determine whether the
evidence is clear and convincing as a whole), aff’d, 652 F. App’x 971 (Fed. Cir.

App. 73

12
2016); 5 C.F.R. § 1209.4(e) (defining “clear and convincing evidence” as that
measure or degree of proof that produces in the mind of the trier of fact a firm
belief as to the allegations sought to be established ).
¶18

Accordingly, we deny the petition for review and affirm the initial decision.
NOTICE TO THE APPELLANT REGARDING
YOUR FURTHER REVIEW RIGHTS
You have the right to request review of this final decision by the
U.S. Court of Appeals for the Federal Circuit.
The court must receive your request for review no later than 60 calendar
days after the date of this order.

See 5 U.S.C. § 7703(b)(1)(A) (as rev. eff.

Dec. 27, 2012). If you choose to file, be very careful to file on time. The court
has held that normally it does not have the authority to waive this statutory
deadline and that filings that do not comply with the deadline must be dismissed.
See Pinat v. Office of Personnel Management, 931 F.2d 1544 (Fed. Cir. 1991).
If you want to request review of the Board’s decision concerning your
claims

of

prohibited

personnel

practices

under

5

U.S.C.

§ 2302(b)(8),

(b)(9)(A)(i), (b)(9)(B), (b)(9)(C), or (b)(9)(D), but you do not want to challenge
the Board’s disposition of any other claims of prohibited personnel practices, you
may request review of this final decision by the U.S. Court of Appeals for the
Federal Circuit or any court of appeals of competent jurisdiction. The court of
appeals must receive your petition for review within 60 days after the date of this
order. See 5 U.S.C. § 7703(b)(1)(B) (as rev. eff. Dec. 27, 2012). If you choose
to file, be very careful to file on time. You may choose to request review of the
Board’s decision in the U.S. Court of Appeals for the Federal Circuit or any other
court of appeals of competent jurisdiction, but not both. Once you choose to seek
review in one court of appeals, you may be precluded from seeking review in any
other court.
If you need further information about your right to appeal this decision to
court, you should refer to the Federal law that gives you this right. It is found in

App. 74

13
title 5 of the United States Code, section 7703 (5 U.S.C. § 7703) (as rev. eff.
Dec. 27, 2012). You may read this law as well as other sections of the United
States

Code,

at

our

website,

http://www.mspb.gov/appeals/uscode.htm.

Additional information about the U.S. Court of Appeals for the Federal Circuit is
available at the court’s website, www.cafc.uscourts.gov. Of particular relevance
is the court’s “Guide for Pro Se Petitioners and Appellants,” which is contained
within the court’s Rules of Practice, and Forms 5, 6, and 11.

Additional

information about other courts of appeals can be found at their respective
websites, which can be accessed through the link below:
http://www.uscourts.gov/Court_Locator/CourtWebsites.aspx.
If you are interested in securing pro bono representation for an appeal to
the U.S. Court of Appeals for the Federal Circuit, you may visit our website at
http://www.mspb.gov/probono for information regarding pro bono representation
for Merit Systems Protection Board appellants before the Federal Circuit. The
Merit Systems Protection Board neither endorses the services provided by any
attorney nor warrants that any attorney will accept representation in a given case.

FOR THE BOARD:

______________________________
Jennifer Everling
Acting Clerk of the Board

Washington, D.C.

App. 75

Case
:17
-70617
,01
/08
/2019
,ID
:11144729
,Dk
tEn
t
ry
:43
-1
,Page1o
f3

F
ILED

NOTFORPUBL
ICAT
ION
UN
ITEDSTATESCOURTOFAPPEALS

(2012o
f2019
)

JAN082019
MOLLYC
.DWYER
,CLERK
U
.S
.COURT OFAPPEALS

FORTHEN
INTHC
IRCU
IT

KATHRYNA
.FLYNN
,

No
. 17
-70617

P
e
t
i
t
ion
e
r
,

MSPBNo
.
SF
-1221
-14
-0620
-W
-1

v
.
MER
ITSYSTEMSPROTECT
ION
BOARDa
ndUN
ITEDSTATES
DEPARTMENTOFTHEARMY
,

MEMORANDUM*

R
e
spond
e
n
t
s
.
OnP
e
t
i
t
ionfo
rR
e
v
i
ewo
fa
nO
rd
e
ro
fth
e
M
e
r
i
t
sSy
s
t
em
sP
ro
t
e
c
t
ionB
o
a
rd
Subm
i
t
t
e
dJ
a
n
u
a
ry7
,2019**
B
e
f
o
r
e
: GOODW
IN
,LEAVY
,a
ndS
ILVERMAN
,C
i
r
c
u
i
tJudg
e
s
.
D
r
.K
a
th
ry
nA
.F
ly
nn
,p
ro
c
e
e
d
ingp
ros
e
,p
e
t
i
t
ion
sfo
rr
e
v
i
ewo
fth
eM
e
r
i
t
S
y
s
t
em
sP
ro
t
e
c
t
ionB
o
a
rd
’
s(
“MSPB
”
)f
in
a
lo
rd
e
rinh
e
ra
c
t
iona
l
l
e
g
ingth
a
tth
e
D
e
p
a
r
tm
e
n
to
fth
eA
rm
y(
“
t
h
ea
g
e
n
c
y
”
)tookd
i
s
c
i
p
l
in
a
rya
c
t
iona
n
du
l
t
im
a
t
e
ly

Th
i
sd
i
spo
s
i
t
ioni
sno
ta
pp
rop
r
i
a
t
efo
rpub
l
i
c
a
t
iona
ndi
sno
tp
r
e
c
e
d
e
n
t
e
x
c
e
p
ta
sp
rov
id
e
dbyN
in
thC
i
r
c
u
i
tR
u
l
e36
-3
.
*

Th
ep
a
n
e
lun
a
n
im
ou
s
lyc
on
c
lud
e
sth
i
sc
a
s
ei
ssu
i
t
a
b
l
efo
rd
e
c
i
s
ion
w
i
t
h
o
u
to
r
a
la
rgum
e
n
t
.S
e
eF
e
d
.R
.App
.P
.34
(
a
)
(2
)
.
*
*

App
.76

Case
:17
-70617
,01
/08
/2019
,ID
:11144729
,Dk
tEn
t
ry
:43
-1
,Page2o
f3

(2013o
f2019
)

f
a
i
l
e
dt
or
e
n
ewh
e
rem
p
loym
e
n
tinv
io
l
a
t
iono
fth
eW
h
i
s
t
l
e
b
low
e
rP
ro
t
e
c
t
ionA
c
t
,5
U
.S
.C
.§2
302
(b
)
(8
)
. W
eh
a
v
eju
r
i
sd
i
c
t
ionund
e
r5U
.S
.C
.§7703
(b
)
(1
)
(B
)
. W
e
r
e
v
i
ewd
enovoqu
e
s
t
ion
so
fth
e MSPB
’
sju
r
i
sd
i
c
t
ion
,Dan
i
e
l
sv
.M
e
r
i
tS
y
s
.P
ro
t
.
3
2F
.3d1049
,1054(9
thC
i
r
.2016
)
,a
ndw
i
l
ls
e
ta
s
id
eth
e MSPB
’
sa
c
t
ion
s
,
B
d
.,8
f
i
n
d
i
n
g
s
,o
rc
o
n
c
lu
s
ion
son
ly
i
fth
e
ya
r
e“
(1
)a
rb
i
t
r
a
ry
,c
a
p
r
i
c
iou
s
,a
na
bu
s
eo
f
d
i
s
c
r
e
t
i
o
n
,o
ro
th
e
rw
i
s
en
o
tina
c
c
o
rd
a
n
c
ew
i
thl
aw
;(2
)ob
t
a
in
e
dw
i
thou
t
p
r
o
c
e
d
u
r
e
sr
e
qu
i
r
e
dbyl
aw
,ru
l
e
,o
rr
e
gu
l
a
t
ionh
a
v
ingb
e
e
nfo
l
low
e
d
;o
r
(
3
)u
n
s
u
p
po
r
t
e
dbysub
s
t
a
n
t
i
a
le
v
id
e
n
c
e
,
”5U
.S
.C
.§7703
(
c
)
. W
ea
f
f
i
rm
.
T
oth
ee
x
t
e
n
tth
a
tD
r
.F
ly
nn
’
sc
l
a
im
sa
r
eb
a
s
e
donp
e
r
sonn
e
la
c
t
ion
s
a
l
l
e
g
e
d
l
yt
a
k
e
nb
e
c
a
u
s
esh
ef
i
l
e
da
nEqu
a
lEm
p
loym
e
n
tOppo
r
tun
i
tyc
om
p
l
a
in
t
,
t
h
e MSPBp
rop
e
r
lyc
on
c
lud
e
dth
a
ti
tl
a
c
k
e
dju
r
i
sd
i
c
t
iontoc
on
s
id
e
rth
ec
l
a
im
s
.
S
e
e5U
.S
.C
.§1221
(
a
)
;
Dan
i
e
l
s,832F
.3da
t1051(MSPBju
r
i
sd
i
c
t
ionov
e
ra
n
i
n
d
i
v
i
d
u
a
lr
igh
to
fa
c
t
ion(
“
IRA
”
)a
pp
e
a
lr
e
qu
i
r
e
snon
f
r
ivo
lou
sa
l
l
e
g
a
t
ion
so
f
w
h
i
s
t
l
e
b
l
ow
e
rd
i
s
c
lo
su
r
e
s
)
.M
o
r
e
ov
e
r
,D
r
.F
ly
nnd
idno
tr
a
i
s
eth
i
sa
rgum
e
n
t
b
e
f
o
r
et
h
eO
f
f
i
c
eo
fSp
e
c
i
a
lC
oun
s
e
l(
“OSC
”
)a
ndth
e
r
e
fo
r
ef
a
i
l
e
dtoe
xh
a
u
s
ti
t
.
S
e
ei
d
.a
t1051(MSPBju
r
i
sd
i
c
t
ionov
e
ra
nIRAa
pp
e
a
lr
e
qu
i
r
e
sth
a
tth
ea
pp
e
l
l
a
n
t
h
a
v
ee
x
h
a
u
s
t
e
da
dm
in
i
s
t
r
a
t
iv
er
em
e
d
i
e
sb
e
fo
r
eth
eOSC
)
.
S
u
b
s
t
a
n
t
i
a
le
v
id
e
n
c
esuppo
r
t
sth
e MSPB
’
sd
e
t
e
rm
in
a
t
ionth
a
tth
ea
g
e
n
c
y
p
r
o
v
e
db
y“
c
l
e
a
ra
ndc
onv
in
c
inge
v
id
e
n
c
eth
a
ti
twou
ldh
a
v
et
a
k
e
nth
es
am
e
2

App
.77

Case
:17
-70617
,01
/08
/2019
,ID
:11144729
,Dk
tEn
t
ry
:43
-1
,Page3o
f3

(2014o
f2019
)

p
e
r
s
o
n
n
e
la
c
t
ioninth
ea
b
s
e
n
c
eo
f
”th
ep
ro
t
e
c
t
e
dd
i
s
c
lo
su
r
e
s
.5U
.S
.C
.
§1
2
2
1
(
e
)
(1
)
;s
e
eDugganv
.D
e
p
’
to
fD
e
f
e
n
s
e
,883F
.3d842
,846
-47(9
thC
i
r
.
2
0
1
8
)(
a
d
op
t
ingth
eF
e
d
e
r
a
lC
i
r
c
u
i
t
’
sth
r
e
e
f
a
c
t
o
rt
e
s
t
,a
ss
e
tou
tinC
a
r
rv
.So
c
ia
l
,185F
.3d1318
,1323(F
e
d
.C
i
r
.1999
)
,
fo
rd
e
t
e
rm
in
ing
S
e
c
u
r
i
t
yAdm
in
i
s
t
ra
t
ion
w
h
e
t
h
e
rt
h
ea
g
e
n
c
yh
a
sc
a
r
r
i
e
dth
i
sbu
rd
e
n
)
.
D
r
.F
ly
nnh
a
sno
td
em
on
s
t
r
a
t
e
da
na
b
u
s
eo
fd
i
s
c
r
e
t
ionbyth
ea
dm
in
i
s
t
r
a
t
iv
e
j
u
d
g
ei
nd
e
ny
inga
nyo
fh
e
rd
i
s
c
ov
e
ryr
e
qu
e
s
t
so
rr
e
q
u
e
s
t
stoc
om
p
e
ld
e
po
s
i
t
ion
s
.
S
e
eD
u
g
g
an
,883F
.3d
.a
t848(
s
t
a
nd
a
rdo
fr
e
v
i
ew
)
.
T
h
er
e
c
o
rddo
e
sno
tsuppo
r
tD
r
.F
ly
nn
’
sc
on
t
e
n
t
ionth
a
tth
ea
dm
in
i
s
t
r
a
t
iv
e
j
u
d
g
ew
a
sb
i
a
s
e
da
g
a
in
s
th
e
r
.
T
h
e MSPB
’
sm
o
t
iontod
i
sm
i
s
sth
e MSPBa
sap
a
r
tytoth
i
sa
pp
e
a
l(Dk
t
.No
.
1
0
)i
sGRANTED
.S
e
eJ
ohn
e
nv
.U
.S
.M
e
r
i
t
sS
y
s
.P
ro
t
.Bd
.
,882F
.3d1171
,1174
(
9
t
hC
i
r
.2018
)(
(
“
[B
]
e
c
a
u
s
eP
e
t
i
t
ion
e
ri
ss
e
e
k
ingr
e
v
i
ewo
fth
eB
o
a
rd
’
sd
e
c
i
s
ion
o
nt
h
em
e
r
i
t
so
fh
i
st
e
rm
i
n
a
t
iona
nde
x
c
l
u
s
ion
,th
e[MSPB
]i
sno
tth
ep
rop
e
r
r
e
s
p
o
n
d
e
n
t
. On
ly
th
ea
g
e
n
c
yth
a
ttookth
ea
c
t
ion...i
sp
rop
e
r
ly[
th
e
]
r
e
s
p
o
n
d
e
n
t
.
”
)
.
M
a
u
r
i
c
eM
.C
a
r
t
e
r
’
sm
o
t
ionfo
rl
e
a
v
etof
i
l
eab
r
i
e
fa
sam
i
c
u
sc
u
r
i
a
e(Dk
t
.
N
o
.3
4
)i
sDEN
IED
.
AFF
IRMED
.
3

App
.78

